<html>
<title> - OVERSIGHT OF NRC MANAGEMENT AND THE NEED FOR LEGISLATIVE REFORM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





    OVERSIGHT OF NRC MANAGEMENT AND THE NEED FOR LEGISLATIVE REFORM

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                AND THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2013

                               __________

                           Serial No. 113-110



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

88-399 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                  (ii)
              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)
                                 ------                                

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        JOHN A. YARMUTH, Kentucky
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)    HENRY A. WAXMAN, California (ex 
                                         officio)
















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................    11
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    11
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................    12
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    13
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................    14
    Prepared statement...........................................    15
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    39
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    93

                               Witnesses

Allison M. Macfarlane, Chairman, Nuclear Regulatory Commission...    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   111
    Additional response to Ms. Capps.............................   175
    Additional response to Mr. Scalise...........................   197
Kristine L. Svinicki, Commissioner, Nuclear Regulatory Commission    40
    Prepared statement \1\
    Answers to submitted questions...............................   201
George Apostolakis, Commissioner, Nuclear Regulatory Commission..    41
    Prepared statement \1\
    Answers to submitted questions...............................   216
William D. Magwood IV, Commissioner, Nuclear Regulatory 
  Commission.....................................................    41
    Prepared statement \1\
    Answers to submitted questions...............................   229
William C. Ostendorff, Commissioner, Nuclear Regulatory 
  Commission.....................................................    43
    Prepared statement \1\
    Answers to submitted questions...............................   249

                           Submitted Material

Letter of November 21, 2013, from Mr. Whitfield and Mr. Shimkus 
  to Ms. Macfarlane, submitted by Mr. Shimkus....................     3
Letter of December 9, 2013, from Ms. Macfarlane to Mr. Whitfield, 
  submitted by Mr. Shimkus.......................................     8
Chart, ``Average Fleet Implementation Cost Compared to NRC 
  Estimates,'' submitted by Mr. Griffith.........................    70
Chart, ``Nuclear Regulatory Timeline (Typical--4 Unit Fleet),'' 
  submitted by Mr. Scalise.......................................    74
Chart, ``Nuclear Regulatory Initiatives and Impacts--with 
  Fukushima,'' submitted by Mr. Scalise..........................    76
Chart, ``Average Fleet Implementation Cost Compared to NRC 
  Estimates,'' submitted by Mr. Scalise..........................    78

----------
\1\ Ms. Svinicki, Mr. Apostolakis, Mr. Magwood, and Mr. Ostendorff did 
not submit prepared statements. Ms. Macfarlane submitted a statement on 
behalf of the Commission.
Chart, ``Nuclear Reactor Safety Budget and Total Licensing 
  Actions and Tasks, 2005-2014,'' submitted by Mr. Johnson.......    83
Graph, ``Spending on Selected Cost Categories (Utilities),'' 
  Electric Utility Cost Group, submitted by Mr. Johnson..........    85
H.R. 3132, the Nuclear Regulatory Commission Reorganization Plan 
  Codification and Complements Act, submitted by Mr. Shimkus.....    94
Report, dated June 6, 2011, ``NRC Chairman's Unilateral Decision 
  To Terminate NRC's Review of DOE Yucca Mountain Repository 
  License Application,'' Office of the Inspector General, 
  submitted by Mr. Shimkus \2\

----------
\2\ Internet link to the report is available at http://
  docs.house.gov/meetings/IF/IF03/20131212/101584/HHRG-113-IF03-
  20131212-SD002.pdf.

 
    OVERSIGHT OF NRC MANAGEMENT AND THE NEED FOR LEGISLATIVE REFORM

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                             joint with the
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:14 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the Subcommittee on Environment and the 
Economy) presiding.
    Members present from the Subcommittee on Environment and 
the Economy: Representatives Shimkus, Gingrey, Murphy, Harper, 
Bilirakis, Johnson, and DeGette.
    Members present from the Subcommittee on Energy and Power: 
Representatives Whitfield, Scalise, Hall, Pitts, Terry, 
Burgess, Olson, McKinley, Gardner, Kinzinger, Griffith, Barton, 
McNerney, Tonko, Engel, Green, Capps, Barrow, Christensen, 
Castor, Dingell, and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Matt Bravo, Professional Staff Member; 
Allison Busbee, Policy Coordinator, Energy and Power; Annie 
Caputo, Professional Staff Member; Vincent Esposito, Fellow, 
Nuclear Programs; Tom Hassenboehler, Chief Counsel, Energy and 
Power; David McCarthy, Chief Counsel, Environment and the 
Economy; Brandon Mooney, Professional Staff Member; Chris 
Sarley, Policy Coordinator, Environment and the Economy; Peter 
Spencer, Professional Staff Member, Oversight; Tom Wilbur, 
Digital Media Advisor; Jeff Baran, Democratic Senior Counsel; 
Alison Cassady; Democratic Senior Professional Staff Member; 
Greg Dotson, Democratic Staff Director, Energy and Environment; 
and Ryan Skukowski, Democratic Staff Assistant.
    Mr. Shimkus. Welcome everyone. I would like to call the 
hearing to order, and I would like to welcome the Commission 
here again. And I would like to recognize myself for 5 minutes 
for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    We are holding this hearing today to conduct oversight of 
the Nuclear Regulatory Commission to consider H.R. 3132, 
Chairman Terry's bill, the Nuclear Regulatory Commission 
Reorganization Plan Codification and Complements Act.
    [H.R. 3132 appears at the conclusion of the hearing.]
    The NRC's role in protecting public health and safety, and 
the environment, is a vital one, and we take our oversight 
responsibility very seriously.
    Thank you, Commissioners, for making yourselves available 
today.
    Earlier this year, August 13, the U.S. Court of Appeals for 
the District of Columbia Circuit granted a Writ of Mandamus 
stating that, and I quote, ``the Nuclear Regulatory Commission 
must promptly continue with the legally mandated licensing 
process'' for Yucca Mountain. Yet, it wasn't until November 18, 
3 months later, that the Commission finally issued an order 
directing the staff to proceed and resume the license review. 
While I largely agree with the Commission's Order, I question 
why it took so long, and why some key budget and schedule 
information is still missing. Given the Commission's history on 
this topic, I wondered if the NRC was dragging its feet on the 
issue, or if is this is just the NRC's normal pace of 
operation. As it turns out, the NRC seems to be losing its 
schedule discipline in a number of areas like new plant 
licensing, license extensions and power uprate reviews, just to 
name a few. And that seems odd given the growth of the NRC's 
budget and personnel over the past 10 years, the reduced number 
of operating reactors and the decrease in material licensees, 
and with the withdrawal of many new plant licenses. So on 
November 21, Mr. Whitfield and I sent you a letter asking for 
information--for more information to help the committee 
understand how the growth in your budget and decreased workload 
has not fostered timelier decisionmaking. At this time, I would 
like to ask that it be included in the hearing record together 
with the NRC's response. Without objections, so ordered.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shimkus. Thank you. Going forward, I will work with 
Chairman Upton and Chairman Whitfield to bring greater scrutiny 
of the NRC's abilities to manage its workload and to make 
decisions in a timely fashion.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    We are holding this hearing today to conduct oversight of 
the Nuclear Regulatory Commission and to consider H.R. 3132, 
Chairman Terry's bill: the Nuclear Regulatory Commission 
Reorganization Plan Codification and Complements Act. The NRC's 
role in protecting public health and safety and the environment 
is a vital one and we take our oversight responsibility very 
seriously. Thank you, Commissioners, for making yourselves 
available today.
    Earlier this year, on August 13, the U.S. Court of Appeals 
for the District of Columbia Circuit granted a writ of mandamus 
stating that ``.the Nuclear Regulatory Commission must promptly 
continue with the legally mandated licensing process'' for 
Yucca Mountain. Yet it wasn't until November 18, three months 
later, that the commission finally issued an order directing 
the staff to proceed and resume the license review. While I 
largely agree with the commission's order, I question why it 
took so long and why some key budget and schedule information 
is still missing.
    Given the commission's history on this topic, I wondered if 
the NRC was dragging its feet on this issue or if this is just 
the NRC's normal pace of operation. As it turns out, the NRC 
seems to be losing its schedule discipline in a number of areas 
like new plant licensing, license extensions, and power uprate 
reviews just to name a few.
    That seems odd given the growth in the NRC's budget and 
personnel over the past 10 years, the reduced number of 
operating reactors, the decrease in materials licenses, and the 
withdrawal of many new plants licenses.
    So on November 21, Mr. Whitfield and I sent you a letter 
asking for more information to help the committee understand 
how the growth in your budget and decreased workload HAS NOT 
fostered timelier decision-making. At this time, I'd like to 
ask that it be included in the hearing record together with the 
NRC's response.
    Going forward, I will work with Chairmen Upton and 
Whitfield to bring greater scrutiny of the NRC's ability to 
manage its workload and to make decisions in a timely fashion.

    Mr. Shimkus. And with that, I would like to yield the 
balance of my time to Congressman Terry from Nebraska.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman.
    The independence of the nuclear safety regulator is 
paramount. This is one of the primary reasons why the Nuclear 
Regulatory Commission is comprised of five Commissioners, not a 
single administrator. In 1980, during consideration of how best 
to reorganize the NRC, one Congressman raised concerns about 
how tipping the balance of power too far in favor of the 
Chairman could have drastic consequences.
    I am going to quote Democratic Congressman Toby Moffett 
from his testimony before the Senate Government Affairs 
Committee: ``There will be two situations in the future, those 
where the Chairman is in basic agreement with the majority, 
then those where he or she is not. In those cases where the 
Chairman has a majority of Commissioners with or--with him or 
her, it is obvious that the Chairman will not need the 
extraordinary powers tucked away in his plan to work his or her 
will. The Chairman and the Commission can move in unison 
towards their chosen regulatory policy.'' Continuing, ``But 
what about the other situation where the Chairman is in the 
minority, regardless of party affiliation within the 
Commission, when the majority of the Commissioners oppose the 
Chairman? Isn't it equally obvious that it will be at that 
moment that these special powers will be most appealing to the 
Chairman? Isn't it clear that if these powers are ever to be 
needed and utilized at all, it is precisely by a Chairman bent 
on going against the majority of the Commissioners?'' During--
end quote and end of his statement. During the previous 
chairmanship, we witnessed the turmoil that Mr. Moffett 
foresaw, turmoil that was documented at length by the NRC's 
Inspector General. While I know we are all glad to see the 
Commission functioning collegially as it is now and should be, 
it is incumbent upon us as legislators to do what we can to 
prevent this type of turmoil from recurring in the future. That 
concern is what prompted me to draft this bill, developed in 
large part from the Inspector General's conclusions and with 
the advice and counsel of the NRC itself. And I yield back.
    Mr. Shimkus. The gentleman yields back his time. Is any 
member on the majority side seeking the last minutes? Without 
that, then I will turn to Ranking Member Mr. Tonko for a 5-
minute opening statement.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you. Thank you, Mr. Chairman. Good 
morning. And thank you to our participants at the witness 
table. It is great to have you before the committee.
    We have quite a full roster of potential issues during the 
course of this hearing. Among these is the bill to amend the 
reorganization plan that lays out the structure and authorities 
of the Nuclear Regulatory Commission, and defines the roles of 
the Chair, the Commissioners and the NRC staff, that being H.R. 
3132, which is offered by--authored by our colleague, Mr. 
Terry.
    The nuclear power industry and the electric power sector in 
general are experiencing a number of significant changes, the 
low price and ready availability of natural gas is good news. 
Good news in many respects. But it is shifting the balance 
amongst different types of power generation. We have discussed 
the impacts on coal, but this is dynamic--but this dynamic has 
implications for nuclear power as well. Our nuclear fleet is 
aging. Several plants are to be decommissioned. Some are being 
relicensed. Construction is underway on several new plants. And 
as many members of this committee have noted, significant 
challenges with the permanent storage of nuclear waste are 
still with us.
    In addition, the tragic situation at the Fukushima plant in 
Japan has reawakened some public concerns about nuclear power. 
These are all very important items and each worthy of 
examination on their own. And our subcommittee has focused on 
some of these in previous hearings.
    In light of these important ongoing activities overseen by 
the Commission, I am skeptical of the need for H.R. 3132. The 
bill does not appear to address any real problems. And some of 
its provisions may indeed create new ones. The primary 
responsibility of the Commission is ultimately to ensure that 
the fleet of nuclear power plants is operating safely, and that 
nuclear materials are accounted for and handled safely. There 
is no room for error. The public will not tolerate mishaps or 
accidents. And maintaining public safety and public confidence 
are essential if we are to continue to rely on nuclear power.
    So as we proceed to consider H.R. 3132, that is the lens 
that we should use to examine the merits of this legislation. 
Quick, speedy response is often times called for. In addition 
to the central focus on safety, I would observe that 
reorganizations may at times be productive and useful 
exercises, but they divert time and attention away from the 
main mission of any organization undertaking this task.
    Again, I am skeptical--skeptical, Mr. Cole, that such a 
diversion would be beneficial given the other important matters 
before this Commission. I understand that in the recent past, 
the working relationship among Commissioners was not good. That 
is a concern. But there are ways short of rewriting the 
Commission's operating rules to handle that type of problem. 
And, apparently, the problems have been resolved.
    I believe that we should concentrate our efforts on solving 
problems that truly require a legislative solution. I am not 
convinced that H.R. 3132 can pass that test.
    Thank you, Chairman Macfarlane and Commissioners Svinicki, 
Apostolakis, Magwood and Ostendorff for being here this 
morning. I appreciate the important work that you do. I look 
forward to your testimony and to our discussion this morning. 
And I would like to make available my remaining time. I yield 
to the gentleman from California, Mr. McNerney.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Well, thank you, Mr. Tonko. And I thank the 
chairman for holding the hearing.
    In addition to providing oversight for the Nuclear 
Regulatory Commission, we are here to discuss H.R. 3132, Mr. 
Terry's bill, to modify NRC's organizational structure and 
internal procedures. I do appreciate my colleague and friend's 
efforts on this. But I do have some concerns. Mr. Tonko already 
mentioned those concerns, which lead to the ability of the 
Commission to respond in emergency situations. I am afraid that 
the bill would hamper that. And I hope to hear whether that is 
confirmed or not by the members of the Commission this morning.
    Another issue of the NRC's purview is nuclear waste 
facilities include Yucca Mountain. We heard from Secretary 
Moniz in July that he believes a consent based citing process 
makes sense. That is important in terms of public support for 
particular project. I agree wholeheartedly. We need to be able 
to discuss and address safe technologies for transfer and 
storage of nuclear materials as well. All of these issues are 
important for any nuclear project that may occur in the future. 
And we should take every effort to make sure that they are 
addressed as we go forward.
    My time is expired.
    Mr. Shimkus. The gentleman's time has expired. The 
gentleman yields back. The Chair now recognizes the chairman of 
the Energy and Air Quality Committee, Mr. Whitfield, for 5 
minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you, Chairman Shimkus. And I also want 
to thank you, Chairwoman Macfarlane and other members of the 
Commission, for being with us today. And we certainly 
appreciate the important work that you are involved in.
    I would like to just point out that we attempted to set up 
this hearing beginning in August. And I know everyone has very 
busy schedules. But I hope that your Chief of Staff will work 
with us in the future. Ms. Macfarlane, I know that we had set 
some dates that were not agreeable to all the Commissioners, 
and your staff got back to us, suggested a date in which we 
were not even in session. And as I said, I know we all have 
very busy schedules. But I hope that we can work together to 
facilitate these hearings.
    Also, I read recently that Senator Boxer was being very 
critical of the travel budget for the Commission. And I would 
say that I think it is vitally important that you all do 
adequate travel, because I think the expertise that we have in 
the U.S. on nuclear issues and nuclear safety is better than 
any place else in the world. So I think it is important that we 
continue to share our expertise. And if--I would also say that 
if Senator Boxer is concerned about the travel budget, I can't 
imagine what she must be thinking about the fact that we spent 
$14 or $15 billion on Yucca Mountain and it is still not open. 
And then on top of that, the judgments against the Federal 
Government for not being able to take that waste, and--but, 
obviously, since Fukushima, you all have been very much focused 
on safety issues, as you should, because we want to ensure the 
American people that nuclear energy is safe and that we need 
nuclear energy. We must have it. But I do believe that 
additional regulatory costs should be justified by real safety 
benefits.
    Chairman Shimkus mentioned in a letter in November that we 
sent, we point out that the NRC staffing has grown 29 percent 
over the past 10 years. And the fees recovered from licensees 
and, hence, their customers, has increased 58 percent. As we 
examine this further, we also found in its annual review of the 
industry's long term safety trends, the NRC reported it has not 
identified any statistically significant adverse trends in the 
industry safety performance. And that is commendable. And we 
are all pleased with that. But in spite of that, there are 58 
new regulations pending. And then the NRC received applications 
for 28 new reactors. Licenses were issued to build 4, and 
licenses for 16 reactors have been withdrawn or suspended. Yet, 
the NRC continues to cite budget constraints and delay in their 
reviews. So I do agree with Chairman Shimkus that there seems 
to be an apparent disconnect between the growth of the NRC's 
resources and what appears as a declining workload.
    Yet, we look forward to your comments today on the issues 
that you deem important. And we certainly look forward to the 
opportunity to ask some questions, and certainly look forward 
to hear--work with you as we move forward. And so I--Mr. 
Barton--I yield the balance of my time to Mr. Barton.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    The NRC's role in protecting public health and safety and 
the environment is a vital one: one that I strongly support and 
one that should be adequately funded. However, as I've pointed 
out to you all in the last two appearances before our 
subcommittees and in the wake of the Fukushima nuclear 
accident, I firmly believe that any additional regulatory costs 
should be justified by real safety benefits. I urge you all to 
remember that the costs of regulatory changes are ultimately 
born by consumers.
    Also, as Chairman Shimkus and I recently pointed out in a 
November letter, the NRC's staffing has grown 29 percent over 
the past 10 years and the fees recovered from licensees, and 
hence their customers, has increased 58 percent. As we examined 
this further, we also found:
    <bullet> In its annual review of the industry's long-term 
safety trends, the NRC reported it has not identified ``any 
statistically significant adverse trends in industry safety 
performance''. Yet there are 56 regulations pending.
    <bullet> NRC received applications for 28 new reactors. 
Licenses were issued to build four, and licenses for 16 
reactors have been withdrawn or suspended. Yet, the NRC cites 
budget constraints and delays their reviews.
    So, I agree with Chairman Shimkus that there seems to be an 
apparent disconnect between the growth in the NRC's resources 
and what appears as a declining workload. We believe these 
concerns warrant more scrutiny and I expect to delve deeper 
into these issues going forward.

    Mr. Barton. I appreciate that. Welcome to the Commission, 
and I yield back.
    Mr. Shimkus. So the gentleman yields back his time. The 
minority has asked me that when Ranking Member Waxman shows up 
that I allow him to do his opening statement, which I will 
allow him to do. I think the same courtesy will be given for 
Chairman Upton if he were to show. There are competing 
hearings. So we want to welcome the Commission.
    Part of the challenge is always getting the pronunciations 
of the names right. So with us today is Chairman Macfarlane, 
Commissioner Svinicki. And if I am the butcher, let me know. 
Commissioner Apostolakis, Commissioner Magwood--probably the 
easiest one--and Commissioner Ostendorff. So for my colleagues, 
we will try to get that right without too much challenges.
    And now, just welcome. You all will get a chance to do a 5-
minute opening statement. Your written testimony is on file.
    We will start with Chairman Macfarlane. You are recognized 
for 5 minutes. Thank you and welcome.

    STATEMENTS OF ALLISON M. MACFARLANE, CHAIRMAN, NUCLEAR 
  REGULATORY COMMISSION; KRISTINE L. SVINICKI, COMMISSIONER, 
      NUCLEAR REGULATORY COMMISSION; GEORGE APOSTOLAKIS, 
COMMISSIONER, NUCLEAR REGULATORY COMMISSION; WILLIAM D. MAGWOOD 
IV, COMMISSIONER, NUCLEAR REGULATORY COMMISSION; AND WILLIAM C. 
    OSTENDORFF, COMMISSIONER, NUCLEAR REGULATORY COMMISSION

                STATEMENT OF ALLISON MACFARLANE

    Ms. Macfarlane. Good morning. Is this on? Yes. Good. OK. 
Morning, Chairman Whitfield, Chairman Shimkus, Ranking Member 
Tonko and distinguished members of the subcommittees.
    My colleagues and I appreciate the opportunity to appear 
before you today on behalf of the U.S. Nuclear Regulatory 
Commission. The NRC continues to have a full plate of 
regulatory responsibilities from the operation and 
decommissioning of reactors to nuclear materials, waste and 
security.
    The Commission continues to function effectively and 
collegially. Today, I would like to share a few highlights of 
our accomplishments and challenges.
    The safe and secure operation of the NRC's licensed 
facilities and materials remains our top priority. The vast 
majority, as Chairman Whitfield noted, of operating reactors in 
the United States are performing well, while a few warrant 
enhanced oversight to ensure their safe and secure operation. 
Construction of the new units at the Vogtle and V.C. Summer 
sites is well underway under rigorous NRC inspection. 
Construction also continues at Watts Bar Unit 2, and the staff 
is currently working toward an operating licensing decision for 
that plant in December 2014. We are also anticipating submittal 
of the first design certification applications for small 
modular reactors next year.
    This year, several reactors have shut down or announced 
their decision to cease operations. At these plants--as these 
plants transition from operation to decommissioning, the NRC 
will adjust its oversight accordingly and ensure the next steps 
are safely addressed while keeping the public informed. The NRC 
has acted expeditiously to comply with the August 13, 2013, DC 
Circuit Court of Appeals decision directing us to resume review 
of the Yucca Mountain license application. The Commission 
carefully reviewed feedback from participants to the 
adjudicatory proceeding, and budget information from the NRC's 
staff. And on November 18, the Commission issued an order 
directing the staff to, among other things, complete the Safety 
Evaluation Report for the Department of Energy's Yucca Mountain 
construction authorization application.
    The project planning and building of the technical 
capability at the NRC is now underway. I must note that on 
several matters related to our review of DOE's Yucca Mountain 
license application, my colleagues and I may not be able to 
comment due to pending Motions before the Commission and 
indications that participants to the adjudication may seek 
further relief in Federal court.
    The NRC also continues to make progress in its waste 
confidence work. The proposed temporary storage rule and draft 
generic environmental impact statement are out for public 
comment until December 20. We have conducted 13 public meetings 
in 10 States to get feedback and address questions. To date, 
the Agency has received over 30,000 public comments.
    In the interim, the NRC continues to review all affected 
license applications. But we will not make a final licensing 
decision dependent upon the waste confidence decision until the 
Court's remand has been fully addressed. We continue to address 
lessons learned from the Fukushima Daiichi accident and 
implement appropriate regulatory enhancements. Among other 
things, licensees have purchased and emplaced backup equipment 
at reactor sites, installed supplemental flood barriers and 
pumps to mitigate extensive flooding, and are developing plans 
to install hardened vents and improved spent fuel pool 
instrumentation.
    We are also making progress on several important rule 
makings. We are carefully ensuring that this work does not 
distract us or the industry from the day-to-day nuclear safety 
priorities. The highest priority safety enhancements will be 
implemented by 2016. The NRC has held more than 150 public 
meetings to get input on our Fukushima work and share progress. 
The NRC managed the fiscal year 2013 sequestration cuts such 
that they did not adversely impact the Agency's ability to 
carry out normal operations. However, if sequestration 
continues in 2014, it will negatively impact our research, new 
reactor work and nonemergency licensing activities, among other 
responsibilities.
    The recent government shutdown also had a detrimental 
impact on the NRC's operations. The Agency's safety and 
security mission, including ongoing inspection at our 
licensees' facilities and emergency response capabilities, was 
never in jeopardy. Furthermore, with prudent use of carryover 
resources, we were able to limit the impact of the shutdown 
relative to other agencies. This said, even a 4-day furlough of 
93 percent of our staff cost the Agency more than $10 million 
in lost productivity.
    While we have accomplished a great deal, many challenges 
are still ahead for the NRC. I am confident that we will be 
able to address these and other issues in the coming months. I 
would be pleased now to answer your questions.
    [The prepared statement of Ms. Macfarlane follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Shimkus. Thank you, Chairman. Now, we would like to 
pause for a second to allow our Ranking Member Waxman to give 
his opening statement. Mr. Waxman, you are recognized.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman. I apologize 
for being late. The other subcommittee that is meeting at the 
same time started late. So I am here, and I wanted to thank you 
and especially, Chairman Macfarlane and her fellow 
Commissioners for being here today.
    I want to use my opening remarks to comment on a really bad 
idea. That is the bill that we will be examining today. The 
bill includes a laundry list of changes to the Nuclear 
Regulatory Commission's internal procedures that dredge up old 
disputes that the Commission has already worked through. After 
the Three Mile Island melt down in 1979, Congress and the 
Carter administration recognized the importance of centralized 
emergency authority in the event of a domestic nuclear crisis. 
The Reorganization Plan of 1980 addressed this concern and 
established the basic responsibilities of the Chairman and the 
Commissioners of the Nuclear Regulatory Commission.
    The Terry bill purports to codify the Reorganization Plan. 
But it actually rescinds the plan and ignores a key lesson 
learned from the Three Mile Island: that the United States 
needs a single, clear decision maker during a nuclear 
emergency. The bill takes exactly the opposite approach by 
undermining the Chairman's authority in a crisis. It requires 
the NRC Chairman to involve other Commissioners in emergency 
decisions. The bill even prevents the Chairman from taking any 
emergency actions until she notifies the four Commissioners, 
two Congressional committees, and the general public that she 
has declared an emergency.
    I think that is a troublesome idea. If a nuclear meltdown 
is happening at a U.S. reactor, we don't need a bureaucracy. We 
need the Chair to act quickly and decisively. We should not 
require her to call a host of Commissioners and members of 
Congress, along with the NRC's Web site administrator or public 
affairs office, before exercising emergency authority. The 
impact of this bill could be truly disastrous in a nuclear 
crisis.
    And that is not the only troubling change in the bill. Not 
long ago, the Commission was struggling with a nasty, personal 
conflict. While the Commission seems to have moved past that 
discord under the leadership of Chairman Macfarlane, Mr. Terry, 
the committee Republicans, can't seem to let it go. The Terry 
bill would stir the pot by reopening past disputes. We need the 
NRC focused on nuclear safety, not constantly rewriting its 
internal procedures.
    The effect of virtually every proposed change in the bill 
is to shift authority from the NRC Chair to the other 
Commissioners. It even would mandate that the Commissioners 
complain to the President and Congress about any perceived 
violations of the bill's requirements by the Chair. That is not 
likely to encourage continued collegiality.
    There is one NRC internal procedure that is not addressed 
by the Terry bill but that should be changed. The Commission 
recently revised its policy for how it handles a Congressional 
request for nonpublic documents. Previously, NRC provided 
documents requested by the Agency's oversight committees, as 
well as individual members on those committees or with nuclear 
facilities in their districts. Under the new policy, NRC will 
not provide nonpublic documents to individual members, and may 
withhold sensitive documents from chairmen and ranking members 
as well. I think this is a misguided and dangerous policy. If 
Mrs. Capps wants to see a document related to Diablo Canyon, 
she should get it. If Mr. Terry wants information about Fort 
Calhoun, he should get it. This is not a partisan issue. It is 
about the institutional oversight responsibilities of this 
committee and its members. And I encourage all five 
Commissioners to rethink this flawed policy. And I look forward 
to further discussing this issue today.
    Mr. Chairman, thank you for your courtesy. And I have to 
apologize in advance, because I have to be at another 
subcommittee at the same time as this subcommittee. And cloning 
has not advanced sufficiently for me to be at both places at 
once. But I will be back and forth as much as possible. Thank 
you.
    Mr. Shimkus. The gentleman yields back his time. I am sure 
a lot of people are glad that you are not able to be cloned 
yet, Mr. Waxman. So--we will miss you, though.
    Mr. Waxman. So am I.
    Mr. Shimkus. And I am sure Mr. Terry appreciates your 
ability to comment on his bill. So with that, we turn back to 
the Commissioners. Again, welcome. Commissioner Svinicki, you 
are recognized for 5 minutes.

               STATEMENT OF KRISTINE L. SVINICKI

    Ms. Svinicki. Thank you. Thank you, Chairman Shimkus, 
Chairman Whitfield, Ranking Member Waxman, Ranking Member Tonko 
and members of the subcommittees for the opportunity to appear 
before you today at this oversight hearing on NRC management 
and the potential need for legislative reform.
    The Commission's Chairman, Dr. Allison Macfarlane, in her 
statement on behalf of the Commission, has provided a 
comprehensive description of key Agency accomplishments and 
challenges in carrying out NRC's important mission of 
protecting public health and safety, and promoting the common 
defense and security of our Nation. The circumstances in which 
we find ourselves carrying out this mission require constant 
adaptation of our approaches.
    This point was communicated very directly last month in a 
message sent from NRC's senior career official, the Executive 
Director for Operations, Mark Satorius, to all NRC Agency 
employees. His message was as follows. ``Our future is likely 
to be dynamic and unpredictable. And the Agency will need to 
remain highly flexible and agile as we respond to new events 
and external pressures. We will need to continually evaluate 
the work we are doing, give careful consideration as to how 
best to use resources, and remain focused on safety and 
security.'' I agree with Mr. Satorius's statement.
    As an organization which embraces the precepts of 
continuous learning, the NRC consistently seeks to improve its 
internal organizational effectiveness. As a member of this 
Commission, I will work with my Commission colleagues and the 
NRC staff to support the Agency's assessment of how we can 
accomplish our work efficiently and effectively with the 
circumstances and factors we face today.
    I am confident that the NRC's dedicated and highly 
professional staff members are up to the task of meeting these 
challenges, as they have proven time and again over the course 
of the Agency's history. I thank them for their sustained 
commitment to the Agency, to its work and to each other.
    Thank you. I appreciate the opportunity to appear today and 
look forward to questions.
    Mr. Shimkus. Thank you. The Chair now recognizes 
Commissioner Apostolakis. And you are recognized for 5 minutes.

                STATEMENT OF GEORGE APOSTOLAKIS

    Mr. Apostolakis. Thank you, Mr. Chairman. Good morning, 
Chairman Shimkus, Ranking Member Tonko, Chairman Whitfield, 
Ranking Member Rush and distinguished members of the 
subcommittees.
    Today, I would like to offer a few comments on the issue of 
cumulative effects of regulation. The Agency is addressing 
concerns about cumulative effects of regulation in several 
ways. For example, the NRC staff has implemented enhancements 
to our rule making process. These enhancements include the 
concurrent publication of guidance with proposed and final 
rules, as well as a specific solicitation of public comment on 
cumulative effects when the Agency publishes proposed rules.
    Aside from the rule making enhancements, the NRC staff has 
also been receptive to industry proposals for adjustments to 
implementation schedules for post-Fukushima actions when 
justified.
    In addition, in February of this year, the Commission 
directed the NRC staff to develop options for allowing 
licensees to prioritize the implementation of regulatory 
actions as an integrated set and in a way that reflects their 
risk significance on a plant specific basis. The NRC staff and 
industry representatives are currently exploring, in public 
meetings, the idea of piloting this proposal. The rationale 
behind this initiative is, first, that nuclear power plant risk 
is very site specific and, second, that focusing on just one 
area of regulation, such as post-Fukushima safety enhancements, 
ignores other important safety significant work that the Agency 
is doing, such as fire protection.
    In closing, the NRC remains keenly focused on its core 
safety and security mission, and is utilizing our resources in 
a way that will have the greatest impact on improving safety. 
Thank you very much.
    Mr. Shimkus. Thank you. The Chair now recognizes 
Commissioner Magwood for 5 minutes.

               STATEMENT OF WILLIAM D. MAGWOOD IV

    Mr. Magwood. Thank you, Chairman. Good morning, Chairman 
Shimkus, Chairman Whitfield, Ranking Member Tonko. It is a 
pleasure to appear before you today. We appreciate your 
oversight, even when the questions are hard, because we think 
it is very important that we have a chance to share our 
thoughts about these important issues.
    Chairman Macfarlane's written and oral comments capture the 
full range of the activities that we have underway, so I won't 
dwell on that. But as you can see, it has been a very, very 
busy time for the NRC.
    We have made considerable progress in a wide range of areas 
in recent years, including dealing with low-level waste issues, 
updating radiation protection standards, licensing the first 
new nuclear power plant since the 1970s. However, to this day, 
most public Congressional attention has been placed in response 
to the disaster at Fukushima Daiichi.
    Since March 2011, the NRC has learned very important 
lessons from this tragedy. And it has taken clear and 
appropriate action to enhance U.S. nuclear safety. We have kept 
our pledge to neither overreact nor under-react to the events 
in Japan. And I think we have gotten it just about right.
    At the same time, U.S. nuclear energy has also absorbed the 
lessons of Fukushima and has responded with strategies that, 
once fully implemented, could provide safety benefits that are 
actually beyond our regulatory requirements.
    Perhaps more importantly, the mindset of our licensees have 
changed in the face of Fukushima. Two months ago, all of the 
Chief Nuclear Officers of the U.S. nuclear utilities traveled 
to Japan as a group to inspect the Fukushima site and talk with 
those who managed the disaster. The personal insights they 
gained on this trip may have benefits far beyond anything that 
we can regulate.
    Our challenge now, both NRC and its licensees, is to absorb 
the post-Fukushima activities into our normal work and 
prioritize it appropriately. Doing so will require us to 
understand how to manage the preparation for low probability 
extreme events in concert with the enduring need to protect 
against much more likely accident scenarios. Commissioner 
Apostolakis' comments this morning point to an initiative that 
we have undertaken that will help in that direction.
    But this is a big challenge. And the steps that we have 
taken in its face will have significant and far reaching 
implications for many years to come. As we strive to meet these 
challenges, the NRC will have, as always, the benefit of the 
very talented NRC staff, and to have the experienced people who 
lead them. Since we last appeared before this committee, the 
Commissioners appointed a new Executive Director of Operations, 
Mark Satorius, and a new General Counsel, Margie Doan. Both 
have already had a very strong positive impact on the Agency, 
and I look forward to continuing to work with them.
    Thank you for your attention. I look forward to your 
questions this morning.
    Mr. Shimkus. Thank you, Commissioner. Commissioner 
Ostendorff, you are recognized for 5 minutes.

               STATEMENT OF WILLIAM C. OSTENDORFF

    Mr. Ostendorff. Thank you, Chairman Shimkus, Chairman 
Whitfield, Ranking Member Tonko, members of the committee, for 
the chance to be before you today.
    The NRC continues to effectively fulfill its safety 
oversight role by ensuring the proper safe operation of our 
nearly 100 operating reactors and the five reactors under 
construction across the country. As a learning organization, 
the NRC is always seeking to leverage operating experience. And 
as a result, we continue to evaluate the lessons learned from 
Fukushima, and as noted by the Chairman, initiate safety 
improvements where appropriate. I am very confident in the 
decisions the NRC has made to date in this area, and I believe 
the Commission is functioning properly as a body as intended by 
Congress and the administration.
    Others have already talked about the waste confidence 
remand. I won't address that. I will talk very briefly about 
the Yucca Mountain licensing process. I think the November 18 
order issued by the Commission reflected very careful thought 
and deliberation amongst these five Commissioners at this 
table. I think there is a very solid order that was put out 
here less than a month ago. I expect that we will have 
sufficient funds to complete the Safety Evaluation Reports, 
which I believe are important. And we will continue to keep 
this committee informed of those activities as we go forward on 
monthly reports.
    I would also note that many nuclear power plants in this 
country today are operating under challenging and different 
economic conditions than in the past. Potentially costly 
repairs and the low price of natural gas have led to the 
permanent shutdown of four nuclear power plants this year. And 
Vermont Yankee announced they will shutdown next year because 
they are no longer economically viable. Interest in new 
reactors, as a matter of fact, is also waning in the current 
economic climate.
    That said, the NRC will remain vigilant to ensure that 
plants continue to be operating safely, and will provide 
appropriate oversight for decommissioning activities. As others 
at this table have noted, we are also looking at the changing 
demands in our workload, and we have responsibility to ensure 
that our staff is appropriately right sized.
    I appreciate this hearing, the committee's oversight roSle, 
and I look forward to your questions.
    Mr. Shimkus. Thank you, Commissioner. And now I would like 
to recognize myself for 5 minutes for an opening set of 
questions. Because--Commissioner Apostolakis, because of your 
recusal, I am not going to ask you to respond to this series of 
questions, because they are basically all in direction to Yucca 
Mountain. So we will go with Chairman Macfarlane, and then from 
my left to right on the answering of the questions.
    Pursuant to your duties as Commissioner, will you make 
every effort to fully and faithfully comply with the law, yes 
or no, Chairman?
    Ms. Macfarlane. Of course, I will make every effort to 
comply with the law.
    Mr. Shimkus. Thank you.
    Ms. Svinicki. Yes.
    Mr. Magwood. Absolutely.
    Mr. Ostendorff. Yes.
    Mr. Shimkus. The DC Circuit reaffirmed in its August 13 
decision that the Nuclear Waste Policy Act, and I quote, 
``provides that the Nuclear Regulatory Commission''--and on 
their quotation marks--```shall consider' the Department of 
Energy's license application to store nuclear waste at Yucca 
Mountain.'' And again, sub-quotes, ```shall issue a final 
decision approving or disapproving,''' closed sub-quotes, ``the 
application.'' Is that correct?
    Ms. Macfarlane. We are now in the process of----
    Mr. Shimkus. No, just a statement that this is the DC Court 
affirmed. And this is what they have affirmed that you will do.
    Ms. Macfarlane. The DC. Court affirmed that we would 
continue with the licensing process using the existing nuclear 
waste funds that we have.
    Mr. Shimkus. Correct. So you agree with the statement from 
the Court?
    Ms. Macfarlane. I----
    Mr. Shimkus. And that is--OK. Commissioner?
    Ms. Svinicki. Yes, I agree that the Court affirmed that.
    Mr. Magwood. I agree.
    Mr. Ostendorff. I agree.
    Mr. Shimkus. In its November 18 Order addressing the DC 
Circuit Court's Writ of Mandamus, you all acknowledge that the 
NRC does not have sufficient funds to complete the license 
review and the issue of final decision, is that correct?
    Ms. Macfarlane. We do not have sufficient funds to complete 
the licensing review, that is correct.
    Ms. Svinicki. The funds NRC has would be insufficient for 
making that decision.
    Mr. Shimkus. Great. Thank you.
    Mr. Magwood. That is correct.
    Mr. Ostendorff. That is correct.
    Mr. Shimkus. When an Agency is legally bound to implement a 
statutorily mandated action but finds it lacks sufficient 
resources, do you believe it is incumbent upon that Agency to 
request the funding necessary to comply?
    Ms. Macfarlane. Budget decisions are decisions of the 
Commission, and we will discuss them as a Commission.
    Mr. Shimkus. So is that a yes or a no?
    Ms. Macfarlane. That is budget decision, and a decision of 
the Commission, and we will----
    Mr. Shimkus. OK. Well, let me just ask it again, just so we 
understand the question. When an Agency is legally bound, as 
you all have agreed, to implement a statutorily mandated 
action, but finds that it lacks the sufficient resources, do 
you believe it is incumbent upon the Agency that is legally 
mandated by law that you would request the funding necessary to 
comply?
    Ms. Macfarlane. I believe we are complying with the law. We 
are complying with the Court's decision now. And going forward, 
we will discuss any future budget decisions as a commission.
    Mr. Shimkus. All right. This is where I always get 
frustrated. So your response is that even though you are 
legally mandated to comply with the law, and you don't have 
sufficient funds, you don't think it is incumbent upon you to 
request the needed funds to comply with the law?
    Ms. Macfarlane. I think we can--we will discuss this as a 
commission and go forward with it----
    Mr. Shimkus. Why don't you just answer--it is the law. We 
are required to comply. And we need to add a request to fund 
that ability.
    Ms. Macfarlane. We will certainly comply with the law. And 
I will comply with the law.
    Mr. Shimkus. OK. Commissioner Svinicki?
    Ms. Svinicki. Yes, I believe that an Agency should 
formulate and request budgets that comply with the law.
    Mr. Shimkus. Thanks--Commissioner Magwood?
    Mr. Magwood. I think that we will formulate a budget that 
complies with the law. And we will consult with legal advice 
within the Agency and outside the Agency----
    Mr. Shimkus. Yes, it is really not a quick--I am not 
trying--it is not really a quick--trying to be tricky. It is 
just saying--and the budget may not get approved. It may not 
get presented forward. But the basic question is, if the law 
says you have got to comply, and you say we don't have the 
money to comply, I don't think it is a tough response to say 
and I will ask for the money I need to comply with the law. 
Commissioner Ostendorff?
    Mr. Ostendorff. I understand your frustration of the 
responses here, and this is a very challenging issue. As an 
individual Commissioner, I will have an opinion. As a member of 
the Commission, I will also work with my Commission colleagues 
here to my right. I think your question is directly with 
respect to the fiscal year 2015, fiscal year 2016 budget 
process. Would we be requesting additional funds for the high 
level waste licensing? And I think that we have an obligation 
to follow the law. But I also note that this will be a 
Commission decision as to how we move forward with the budget 
request.
    Mr. Shimkus. But the question is to you as an individual 
Commissioner.
    Mr. Ostendorff. Yes.
    Mr. Shimkus. Thank you. And my time is almost expired. Let 
me finish with this. As a statement, the NRC has not, as you 
noted, submitted a supplemental budget request to the Office of 
Management and Budget for additional nuclear waste funds based 
upon the November 21 letter that you sent to us. So my time is 
expired. I now yield to the Ranking Member, Mr. Tonko, for 5 
minutes.
    Mr. Tonko. Thank you, Mr. Chair. And again, welcome.
    After the Three Mile Island accident, President Carter 
convened a commission to identify lessons learned in order to 
improve nuclear safety and ensure a more timely and effective 
response to nuclear emergencies. The panel concluded that the 
Nuclear Regulatory Commission needed a clear leader who 
accessed the Agency's Chief Executive Officer. The panel also 
concluded that in a nuclear emergency, the country needs a 
single unified voice to take charge and make decisions.
    I am concerned that H.R. 3132 takes us backward and ignores 
these important lessons. The bill is at least a provision of 
the Reorganization Plan that consolidates emergency authority 
with the Chair. Under the bill, the Chair may not exercise 
emergency authority unless, and until, the Chair satisfies two 
criteria. First, she must formally declare that a specific 
emergency exists. Second, before taking any action, she must 
notify the other 4 Commissioners, the relevant Congressional 
committees, and the general public.
    I can understand the benefit of a formal declaration. But 
if the Chair gets a call at 3 a.m. that a nuclear power plant 
is in meltdown, why would we require her first action to be 
calling her congressional affairs and public affairs staff, 
rather than calling for an evacuation? Chairman Macfarlane, do 
you think a requirement for you to notify this committee and 
the Senate before taking any emergency action in response to a 
nuclear crisis is appropriate?
    Ms. Macfarlane. I think that the existing internal 
commission procedures on this issue are adequate. I believe 
that the Commission is operating collegially. And I think that 
no changes are needed at this time.
    Mr. Tonko. Thank you. Should an action to respond directly 
to the crisis be the first item on your agenda?
    Ms. Macfarlane. No, I don't believe so.
    Mr. Tonko. Let me ask the other Commissioners. Do any of 
you think that the Chair should have to put out a press 
release, or update the NRC Web site, to fulfill a public notice 
requirement before exercising emergency authority in an urgent 
situation when time is of the essence? Commissioner Svinicki?
    Ms. Svinicki. Under our procedures, the Chairman heads an 
executive team that immediately begins to respond to the 
emergency. And I would just note that the NRC does not make the 
decision on evacuations. That is done by the Governor of the 
State in which the accident is occurring.
    Mr. Tonko. And, Commissioner Apostolakis?
    Mr. Apostolakis. No. As you have pointed out, there was a 
very clear message from Three Mile Island: The Chair should be 
the decision maker during an accident. The last time with 
Fukushima, there were some issues that were raised regarding 
when the Commissioners were notified. The Chairman had assumed 
emergency powers. And, certainly, I don't think that the 
Chairman should have to worry about notifying the other 
Commissioners when she is notified that there is an accident 
and action needs to be taken. At some point later, probably she 
would have to do that.
    Mr. Tonko. Thank you. Commissioner Magwood?
    Mr. Magwood. I think Commissioner Apostolakis' explanation 
is correct. I think it makes a great deal of sense to enable 
the Chairman to take immediate action in the face of an 
emergency. But I do also think that it is important that the 
Chairman, in appropriate time during the crisis, notify the 
Chairman's colleagues that emergency powers have been declared, 
and the situation such as that exists to provide clarity. 
Because, quite frankly, when this was used previously, there 
was a long period of time where there was no clarity as to 
whether an emergency was actually declared or not. And that 
created a great deal of confusion within the Agency.
    Mr. Tonko. Thank you. Commissioner Ostendorff?
    Mr. Ostendorff. I agree with Commissioner Magwood's 
characterization.
    Mr. Tonko. Thank you. Let me ask the other Commissioners. 
Do any of you think that the Chair should have to put out a 
press release or update the NRC Web site to fulfill a public 
notice requirement before exercising emergency authority in an 
urgent situation when time indeed is of the essence? 
Commissioner Svinicki?
    Ms. Svinicki. I don't believe a press release should be the 
highest priority item.
    Mr. Apostolakis. No, she should not have to do that.
    Mr. Tonko. Commissioner?
    Mr. Magwood. No, that should not be the first action.
    Mr. Tonko. And, Commissioner Ostendorff?
    Mr. Ostendorff. Not the first action.
    Mr. Tonko. H.R. 3132 also establishes a greater role for 
the Commissioners in an emergency. For example, the bill 
requires the Chair to consult with the full commission before 
taking any regulatory or policy actions during an emergency, as 
appropriate. And it elevates the involvement of all the 
Commissioners in making decisions that ``may affect commission 
actions and policies beyond the response to a particular 
emergency.'' That could be interpreted differently by different 
Commissioners and clouds the authority of the Chair. So, 
Chairman Macfarlane, during a nuclear emergency, would your 
time be better spent actually responding to the emergency, or 
engaging in discussions with your colleagues about whether a 
particular response might affect policy in the future?
    Ms. Macfarlane. Having personally practiced emergency 
drills with my NRC colleagues and staff, it is clear that time 
is of the essence and situations change rapidly. It is 
important to be able to be as responsive as quickly as 
possible. I would certainly, and have pledged before, to keep 
my colleagues informed to my best ability of all actions and 
the situation.
    Mr. Tonko. Thank you. I note my time has expired. So with 
that, I will yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Kentucky, Mr. Whitfield, the 
chairman of the Energy and Air Quality Subcommittee.
    Mr. Whitfield. Thank you, Chairman Shimkus. And thank you 
all for your opening statements and for, as I said earlier, 
being with us today.
    I am going to ask a question relating to a comment that I 
made in my opening statement, and that is about the--over the 
past 10 years, the number of licensing actions and tasks have 
decreased by 40 percent, and yet the nuclear safety budget has 
increased by 48 percent. So you just look at those numbers, and 
I think a person could be quite critical of the Agency and say, 
oh, your responsibility's going down, your budget is going up 
and the country has a debt now approaching $18 trillion. So I 
would just ask each of you individually, if you wouldn't mind, 
just commenting briefly on--is criticism like this valid, or is 
there a valid reason for budgets to go up that much and the 
workload is going down? Chairman Macfarlane?
    Ms. Macfarlane. Thank you. I would like to submit this for 
the record.
    Mr. Whitfield. OK.
    Ms. Macfarlane. This is a chart of the budget, the NRC in 
actual dollars and in constant dollars from 2003 to this fiscal 
year 2013.
    Mr. Whitfield. OK.
    Mr. Macfarlane. And I think you can see that--basically, if 
you look at the constant dollars, which is the correct 
comparison over time----
    Mr. Whitfield. Right.
    Ms. Macfarlane [continuing]. That the budget now in 2013 is 
the lowest it has been since 2007. And in 2007, that was before 
we had Yucca Mountain, we had waste confidence and we had 
Fukushima. So I would argue we are doing now much more with 
less.
    Mr. Whitfield. And what is the total budget for this year?
    Ms. Macfarlane. In constant dollars, the total budget is--
this is $671 million versus in 2007, it was $680 million.
    Mr. Whitfield. So your--your position is then--in constant 
dollars, you are roughly the same or less----
    Ms. Macfarlane. Less, yes.
    Mr. Whitfield. And the workload----
    Ms. Macfarlane. Is higher.
    Mr. Whitfield. The workload is higher?
    Mr. Macfarlane. Yes.
    Mr. Whitfield. So even though applications and licensing 
actions are going down, the workload is higher----
    Ms. Macfarlane. Yes.
    Mr. Whitfield. And why is that?
    Ms. Macfarlane. The workload is higher because since 2007, 
at least, we have had the Yucca Mountain application. We have 
had waste confidence decision. And, of course, we have had the 
Fukushima accident, which has added to our workload quite 
significantly.
    Mr. Whitfield. Yes. Yes. And all of you agree with that 
assessment, I am assuming? Do you, Ms. Svinicki?
    Ms. Svinicki. I would just note that there isn't a direct 
correspondence between the budget amount and the number of 
industry generated items for review in front of us. We do have 
a number of constant activities that simply must be budgeted 
every year.
    Responding more generally to the criticism, you asked for a 
reaction to the criticism, I would say that as noted by members 
of the committee in their opening statements, this is clearly 
not the world in 2013 that NRC had the trajectory that we had 
been planning for. And so I do agree with Commissioner 
Ostendorff's statement, it is appropriate for this Commission 
and for the Agency to be looking at the right sizing and the 
application of resources to activities.
    Mr. Whitfield. All right.
    Ms. Svinicki. I think we attempt to do that on a pretty 
constant basis.
    Mr. Whitfield. OK. Thanks. And I am running out of time. I 
do want to ask another question. In your opening statement, Ms. 
Macfarlane, you referred to a modular reactor process, to start 
considering those.
    Ms. Macfarlane. Um-hum.
    Mr. Whitfield. I would like to ask each of you to comment 
just briefly on your view of the potential of modular reactors, 
and whether or not they can play an important role or not? Let 
us start with you, Chairman----
    Ms. Macfarlane. Sure. I think they are an interesting--very 
interesting innovation. And, you know, we will see--we are 
waiting for their applications. And I am very interested in 
seeing how this technology progresses.
    Mr. Whitfield. OK. Ms. Svinicki?
    Ms. Svinicki. Well, our colleagues at the U.S. Department 
of Energy have the tough job of looking at the merits of the 
various innovations of the developers of this technology, 
because DOE has programs to fund some of the technology 
development. But we do expect, as a safety authority, to be 
receiving some designs for review. And we have worked hard to 
prepare the Agency to be ready to do those reviews.
    Mr. Whitfield. OK. Mr. Apostolakis?
    Mr. Apostolakis. Well, the industry is spending serious 
dollars in developing the designs of these reactors. So there 
must be potential there.
    Mr. Whitfield. OK. Mr. Magwood?
    Mr. Magwood. I honestly don't know. I think I am--like many 
people, I am waiting to see. Because in the past, for small 
reactors, the challenge has never really been just technical. 
It has always been economic and financial. And until these 
products are on the market, they will be very difficult to know 
for sure. So I am waiting and seeing.
    Mr. Whitfield. Thank you.
    Mr. Ostendorff. I will just comment, Chairman Whitfield, 
that I think we are ready as an Agency to receive the 
applications. We have probably done as--gone as far as we can, 
absent an actual license application in hand. We expect to get 
one the latter part of 2014.
    Mr. Whitfield. Thank you very much. Thank you.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from California, Mr. McNerney, for 
5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Ms. Macfarlane, I 
think you gave an answer to an earlier question that you may 
have intended another answer to give. Shouldn't an action in 
response directly to a crisis be the first item on your agenda? 
Shouldn't responding to a crisis be the first item--safety be 
the first item on your agenda?
    Ms. Macfarlane. Yes. For--in the case--in the event of an 
emergency?
    Mr. McNerney. Yes.
    Ms. Macfarlane. Yes, of course.
    Mr. McNerney. Thank you.
    Ms. Macfarlane. Sorry.
    Mr. McNerney. Regarding nuclear waste, Ms. Macfarlane, is 
local public acceptance necessary for implementation of a 
nuclear waste disposal site?
    Ms. Macfarlane. I think this is an area of discussion. The 
Blue Ribbon Commission on America's Nuclear Future looked at 
this issue. They said that consensus was an important piece of 
siting, that siting decisions weren't just technical decisions, 
but they were also societal. I think if you look at the 
experience of other countries on this issue, ones that have 
been more successful recently, countries like Sweden and 
Finland and France, that--local consensus is important.
    Mr. McNerney. Good. Do you--does Yucca Mountain have local 
public acceptance?
    Ms. Macfarlane. It is not for the Nuclear Regulatory 
Commission to judge that, I am afraid.
    Mr. McNerney. OK. That is fair enough. In November, Ms. 
Macfarlane, the U.S. Court of Appeals for the District ruled 
that the Department of Energy can no longer collect the $750 
million in annual waste disposal fees from nuclear operators. 
How is this ruling going to affect the NRC's ability to develop 
nuclear waste storage sites?
    Ms. Macfarlane. At the moment, it is not going to affect us 
at all.
    Mr. McNerney. OK. I am not sure which Commissioner to ask 
this question of, but how long would it take to get a license 
reviewed for a new nuclear waste--nuclear power plant design?
    Ms. Macfarlane. For a new power plant design?
    Mr. McNerney. Right. Right. From scratch.
    Ms. Macfarlane. From--a design certification?
    Mr. McNerney. Right.
    Ms. Macfarlane. It takes some months to a few years. But it 
depends in large part on the quality of the application. And if 
there are problems with the application, then we have a number 
of iterations with the applicant.
    Mr. McNerney. So when I hear horror stories----
    Ms. Macfarlane. But maybe my colleagues would like to 
comment?
    Voice. Yes.
    Mr. McNerney. When I hear horror stories about how long it 
takes, 5 years or 10 years, that is likely to be due to some 
error--problems in the application?
    Mr. Apostolakis. It does take that time, sometimes longer. 
But it is several years. Now, if there are new--really new 
designs like the small modular reactors, there will be several 
policy issues that will have to be resolved. So I really don't 
know how long that will take.
    Mr. Magwood. There is no such thing as the average case 
with these things. But on average, I would expect that a design 
certification is usually about a 3-year exercise. But to 
actually implement that, to build the plant, takes considerably 
longer. And it really depends on the situation. For example, if 
another applicant comes to build an AP1000 plant, which has 
already been certified and which, as you noted, was under 
construction, that would be a much shorter process than if 
someone came to us with a completely new design. So it depends 
on exactly what the application is.
    Mr. McNerney. Thank you. Mr. Magwood, I appreciate your 
comment about the Commission's challenge in balancing the 
potential for long--for low probability events versus the day-
to-day events that need constant attention. How does the 
Commission go about making those sort of decisions?
    Mr. Magwood. We are working on that right now.
    Mr. McNerney. Thank you. Mr. Apostolakis, one of the things 
you said was--and I think I am quoting it, the cumulative 
effects of regulation. That sounds like something out of Fox 
News. Could you clarify what you meant by that, please?
    Mr. Apostolakis. We have--especially after the Fukushima 
accident and the regulations have started--well, started coming 
out of the Commission, there were a lot of complaints by the 
industry that we were issuing regulations without considering 
other regulations that they have to comply with. So each 
decision of the Commission is focused only on that particular 
regulation. And the industry wants the Commission to think 
about the cumulative effects. What is it that they have to do? 
Do they have the resources? Do they have the time? And is every 
single regulation or request by the NRC of equal importance? So 
that is where--that is the issue of cumulative effects of 
regulation, and the Commission has responded.
    Mr. McNerney. OK. Thank you.
    Mr. Shimkus. I didn't know my colleague was a fan of Fox 
News. So the Chair now recognizes the gentleman from Texas, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairmans, in this joint 
hearing. I was pleasantly surprised to learn that the NRC can 
review a design application in a few months. You got three 
right now that have been under review for over 5 to 7 years. 
You might go back and try to whip those out before Christmas 
since it doesn't take but a month or 2. I am going to ask Mr. 
Shimkus' question a little bit different way. Since Yucca 
Mountain is back under review, and since all the Commission 
indicates that you don't have the resources to complete the 
review process, anybody want to estimate about how much 
additional funding you might need? Ms. Svinicki, what is your 
guess on that? And that is not a trick question. I am just 
interested.
    Ms. Svinicki. In order to assess and develop the order that 
we issued last month that restarted the licensing process, we 
did receive some input. I don't want to say they have the full 
fidelity of a budget estimate, but we attempted to have 
submitted to us, both by the adjudicatory board and also the 
staff, some estimates for these activities. But I would not 
characterize to you, sir, that we have a complete current 
estimate for getting all the way to a final licensing decision.
    Mr. Barton. OK.
    Ms. Svinicki. We do know that restarting the adjudication 
would be a resource intensive activity.
    Mr. Barton. I am not trying to be cute here. I want a 
general ballpark estimate. Are we talking about a few million, 
several hundred million, a billion? I mean, just some sort of 
order of magnitude?
    Ms. Svinicki. For NRC's activities alone, again this 
depends on how the Department of Energy is resourced to support 
our activities, because they are also a participant in this. It 
is very difficult for me to estimate the total dollars. Before 
activities were suspended, our budget requests for NRC were 
varying. They were approximately--in some years, they were very 
close to $100 million just for our review activities for a 
single year. That began to taper down a bit, I think closer to 
$50 million a year. Based on where it had been in previous 
years when the review was underway, I think your estimate of 
the hundreds of millions is probably in the area. That is very 
difficult to estimate.
    Mr. Barton. That is good enough. Madam Chairwoman, has the 
Commission or the administration, if not the Commission, taken 
a position on Mr. Terry's reform bill?
    Ms. Macfarlane. Has the Commission as a whole--no, it has 
not.
    Mr. Barton. Do you have an opinion on his bill?
    Ms. Macfarlane. Yes. My opinion is that--my personal 
opinion is that it is not necessary at this time, and it may 
have unintended consequences.
    Mr. Barton. OK. Any other Commissioner wish to give your 
opinions on his bill? You don't have to, I am just interested.
    Mr. Ostendorff. I will comment, Congressman Barton. I think 
in July of last year, I responded to a QFR following a hearing 
to Chairman Shimkus, and just my position was that with 
Chairwoman Macfarlane here, the challenges we had as a 
Commission with the previous Chairman have gone away, that we 
are operating in an open collegial environment. So some of the 
issues and motivations behind the challenges we had have 
disappeared. But there are a couple of areas where there will 
be greater clarity on some aspects of Congressman Terry's 
legislation. There are some aspects that I personally told 
Chairman Shimkus via my written response with clarification of 
the invocation of emergency powers, for instance, would benefit 
from greater clarity in the statute.
    Mr. Barton. OK. Good. My last question. The last time the 
Commission was here, I pointed out to the Chairman that you 
hadn't given a report on the Fukushima accident. And you 
finally did issue a report last week. So that is the good news. 
The not-so-good news is there is still lots of things that the 
report didn't address. I am just going to go through a very 
quick listing of what the staff has indicated to me was not 
addressed in the report. You didn't address the fact that the 
U.S. has an independent regulator, yourself, and Japan does 
not. The U.S. has an institute of nuclear power operators to 
establish best management practices, Japan does not. The U.S. 
requires plant specific training, Japan does not. The U.S. 
requires severe accident management guidelines, Japan does not. 
The U.S. requires complex training scenarios, site specific, 
and Japan does not. The U.S. requires water level procedures 
for boiling water reactors, Japan does not. The U.S. requires 
site specific evaluation criteria, Japan does not. And the U.S. 
has a requirement for a design basic flood planning that Japan 
does not. Now, all these things that the U.S. does, we can give 
your Commission kudos for requiring that. That is a good thing. 
The fact that none of this was considered in your evaluation of 
the accident, my question to the Chairwoman, do you consider 
the report that was issued last week to be the final word, or 
do you agree with me that more work needs to be done?
    Mr. Macfarlane. The report that was issued last week noted 
that it wasn't comprehensive. But it noted that there were 
similar design basis requirements between the U.S. and Japan 
prior to the accident, but that there were different approaches 
to beyond design basis events and severe accidents. At the same 
time, the report concluded that there was no evidence that a 
Fukushima-type accident would have been necessarily avoided in 
the U.S. And I go back to something Commissioner Ostendorff 
mentioned earlier, I think maybe in his opening statement, 
about the importance of operating experience. And in the 
nuclear industry, operating experience is essential. And from 
the accident, we learned that we had not taken into 
consideration a number of important issues. We had not, prior 
to that accident, considered that more than one reactor could 
melt down at the same time, for instance. There were a number 
of other issues that we did not consider. And I just want to 
point out that this is not something unique to the United 
States, to the NRC, that we discovered this. All other 
significant nuclear regulators around the world came to the 
same conclusions, and we are all implementing very similar 
changes as a result.
    Mr. Barton. My time has expired. I would ask all the other 
Commissioners to answer that question in writing for the 
record, Mr. Chairman.
    Mr. Shimkus. Without objection, all members will be allowed 
to follow-up this hearing with written questions. The Chair now 
recognizes our colleague from the Virgin Islands, Ms. 
Christensen, for 5 minutes.
    Ms. Christensen. Thank you, Mr. Chairman. And, you know, 
thank you for holding this hearing. It is always important for 
the committee to exercise its oversight authority of this 
Commission as we did the FCC, but not to really interfere in 
the day-to-day decisionmaking of the Commission.
    I want to focus on the Terry bill for a moment, and it 
overhauls the respective responsibilities of the Chairman and 
Commissioners of the Nuclear Regulatory Commission and 
essentially rewrites the Commission's internal procedures. 
Chairwoman Macfarlane, do you think it is necessary or 
productive to have Congress rewriting the details of NRC's 
internal Commission procedures?
    Ms. Macfarlane. I think, as I said before, that the current 
internal Commission procedures are quite adequate and that we 
need to be careful in any kind of changes that are made to the 
emergency powers piece, because we don't want any unintended 
consequences. We don't want to go back to a pre-Three Mile 
Island kind of situation and structure at the NRC.
    Ms. Christensen. Thank you. And I note that the Commission 
spent 3 years debating and more than 1 year voting on its last 
revisions in internal procedures. Many of the issues raised by 
the Terry bill were worked out by the Commissioners 
themselves--yourselves in 2011. So I don't really understand 
why we would want to reopen disputes that have really already 
been resolved by the Commission. The bill would set inflexible 
deadlines the Commission is to vote on atomic safety and 
licensing board reviews. The Commission's current decisions do 
not set rigid deadlines and allow for extensions for 
Commissioners who need additional time to reach a decision. So, 
Chairlady Macfarlane, do you think it is--it makes sense to 
have strict voting deadlines without the possibility of 
extensions?
    Ms. Macfarlane. Well, the NRC is an adjudicatory body. The 
Atomic Safety and Licensing Board is an adjudicatory body. And 
some of the cases that they receive are quite complex, both 
technically and legally. And sometimes they take quite awhile 
to resolve. I know of no other court or adjudicatory body that 
has statutory time limits--that operates under statutory time 
limits.
    Ms. Christensen. Thank you. And right now, the NRC Chair 
develops a budget and presents it to the Commission for its 
review and approval. Under the bill, NRC staff would present 
the budget, not the Chairman. So again, Chairwoman Macfarlane, 
do you think it makes sense to strip the NRC Chairman of the 
responsibility to present an annual budget to the Commission?
    Ms. Macfarlane. I think it is important for a collegial 
body to function properly that someone has to have a leadership 
role, and somebody has to, in this case, present a budget. I 
think it is important for oversight committees to have somebody 
to hold accountable. So----
    Ms. Christensen. And I would imagine that budget is--the 
development of that budget takes place with staff, with the 
executive director, but it is----
    Ms. Macfarlane. It does. And I think you could ask my 
colleagues to confirm that the budget development that has 
occurred since I have been there has been done in a collegial 
and collaborative manner.
    Ms. Christensen. I want to try to finish up one more 
question. Back in October 2011, four NRC Commissioners sent a 
letter to the White House Chief of Staff to express concern 
about the then-Chairman Jaczko. It was a low point in the 
breakdown of the relationship among Commissioners. And Mr. 
Terry's bill actually requires Commissioners to send future 
letters to the President if they believe the Chairperson has 
not complied with NRC internal procedures. So again, Chairlady 
Macfarlane, do you think this mandate makes sense? Is it going 
to encourage continued collegiality among the Chairman and 
Commissioners?
    Ms. Macfarlane. You know, I don't want to comment on the--
what happened before me. But I think I just will say and 
maintain that I think now the Commission is operating 
collegially and collaboratively, and I encourage you to check 
with my Commission colleagues on that issue.
    Ms. Christensen. Well--go ahead. I have about a minute for 
you to answer--for all four of you to answer that.
    Ms. Svinicki. I agree that the Commission is currently a 
very collegial body.
    Mr. Apostolakis. I agree.
    Mr. Magwood. I agree as well. But let me just take a second 
just to say that after having gone through the last few years, 
I am extremely appreciative of what Congressman Terry has tried 
to do with this legislation. I think that it is appropriate for 
Congress to take a look at the legislative background of the 
Agency, given recent events. And I agree with Commissioner 
Ostendorff that there are some aspects of the reorganization 
plan that probably require some clarification. I think you, 
however, have pointed out some things that could lead to 
unintended consequences, as Chairman Macfarlane said. So I 
think it is certainly something that is worth looking at. And I 
do think there is room for clarification.
    Ms. Christensen. Mr. Ostendorff?
    Mr. Ostendorff. I agree with Commissioner Magwood's 
comments. And I would just add two pieces here. One, I think 
the Chairman needs to be able to be the Chairman and exercise a 
leadership role, and that he or she has to have appropriate 
authorities to do such. I also think that there are places 
where greater clarification would be helpful, and I believe 
that is the spirit of Congressman Terry's efforts in several 
cases here.
    Ms. Christensen. Thank you, Mr. Chairman. I just think that 
the Commissioners--the Commission itself has the authority and 
the wherewithal to make those clarifications. Thank you, Mr. 
Chairman. I yield back.
    Mr. Shimkus. The gentlelady yields back her time. The Chair 
now recognizes the gentleman from Georgia, Mr. Gingrey, ranking 
member of my subcommittee, for 5 minutes.
    Mr. Gingrey. Vice chair. Mr. Chairman, thank you. Thank you 
very much. I am very pleased to hear that the Commission is a 
collegial body, because indeed we are too, as you all know.
    Chairwoman Macfarlane, I understand you spoke last week to 
a conference in Japan where you indicated, and I quote, ``We 
have no ultimate plan for spent fuel disposition.'' I don't 
know if this statement reaches the depth of a selfie. But if 
there is no plan, what was the basis of the DC Circuit issuing 
a Writ of Mandamus compelling the Agency to resume its review 
of Yucca Mountain?
    Ms. Macfarlane. I think I was referring in general to the 
fact that, globally, there is right now no high-level waste 
repository in any country. So I was speaking very broadly when 
I was making these statements at this workshop.
    Mr. Gingrey. Yes, I understand. But if there is no plan, 
what is the basis for our electricity rate payers to pay $750 
million to the Federal Government every year?
    Ms. Macfarlane. I think the Court actually has overturned 
that for the moment.
    Mr. Gingrey. Well, I assume--I--well, I don't assume. 
Actually, I assure you, Madam Chairman--I assure you that there 
is a plan. There may be a few people in this town that want to 
pretend that there is no plan. But there is. And it is 
enshrined in a law called the Nuclear Waste Policy Act. And 
335--and not just Republicans--335 House Members voted to fund 
that plan this summer. What I think we need to see from NRC is 
your plan for fully and faithfully complying with the law. And 
I would expect an Agency that is statutorily mandated to 
complete an action, in this case the license review, to have a 
plan for doing so. Failing to plan--Madam Chair, I know you 
would agree with this--failing to plan is planning to fail. Is 
the NRC preparing this integrated plan that will encompass all 
actions necessary in support of a final decision, including 
detail schedule and resource estimates?
    Ms. Macfarlane. We are in the process of carrying out the--
the staff is in the process of carrying out the order that I 
referred to that we issued on November 18. I understand our 
staff is going to be providing the Commission with a plan to 
move forward to carry out the Court's decision later this 
month. So we will look forward to receiving that.
    Mr. Gingrey. Well, let me ask the same question of all the 
Commissioners, starting from your right. Would you support 
preparation of such a plan? And if you would not, why not?
    Ms. Svinicki. I do support the development of these types 
of estimates within the Agency to inform, as we noted in our 
order, our future budget deliberations.
    Mr. Apostolakis. I don't----
    Mr. Gingrey. And I understand you're recused. Certainly. 
Mr. Magwood?
    Mr. Magwood. To be perfectly honest, I think that we have 
been so focused on implementing the Court's direction that we 
haven't taken the next step to really think seriously about 
where do we go from here. And I think you have raised the valid 
question. Actually, another Commissioner and I were talking 
about this just yesterday in a very, very brief way. So I think 
it is something we will have to take back and give a lot of 
thought to.
    Mr. Gingrey. Mr. Ostendorff?
    Mr. Ostendorff. I personally do support preparing a plan to 
see what it takes to move forward.
    Mr. Gingrey. The Commission has directed the staff to--and 
I quote here ``complete the Safety Evaluation Report, SER, 
using the approach that was underway when work on the SER was 
suspended. That is the staff should work on the completion of 
all remaining volumes concurrently, but issue each SER volume 
upon completion.'' These are the--my final two questions. Will 
that follow the previous schedule that was in place when the 
review was terminated, Madam Chairwoman?
    Ms. Macfarlane. The previous schedule that when it was 
terminated--start----
    Mr. Gingrey. When it was terminated. Will you follow the 
previous schedule?
    Ms. Macfarlane. It--as I said, the staff is developing 
their plan to move forward. They are going to be giving that to 
us later this month.
    Mr. Gingrey. Well, back then, Madam Chairwoman, Volume 3 
was the next one scheduled for release. Can you tell the 
committee when we can expect to see that volume, Volume 3?
    Ms. Macfarlane. We don't have that detail right now, and I 
don't want to say more. Because right now, this issue is 
subject to pending Motions before the Commission and may be the 
subject of legal action. So we can't go into great detail on 
this issue.
    Mr. Gingrey. Mr. Chairman, I yield back. Thank you.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Texas, Mr. Green, for 5 
minutes.
    Mr. Green. Mr. Chairman, I would like to take a minute, 
because our colleague, Congressman Gingrey, I know lost his mom 
last week. It is the first time I have seen you, Phil. And I 
know all of us share your loss in your mom. And like I said, I 
haven't had a chance to talk to you about it. But I appreciate 
your friendship and what we do on the committee.
    With that, you know, having been on both these 
subcommittees for a number of years, I appreciate the panel, 
both the Chair and the members, because over the last few 
years, that has not been the relationship between the Chair and 
the members in the collegial. Now, I know where Congressman 
Terry is trying to go with his bill, because it was going to 
solve--trying to solve a problem a lot of us perceived in 
hearings over the last few years. And I have some concern about 
the imperial Chairman issue. And maybe we can look at that. But 
I just appreciate the partnership and the working relationship 
that the Chair you have instituted and the agreement that we 
have. I know it is an unusual way. We have an Agency to do that 
with the power being in the Chair so much.
    But, Ms. Macfarlane, over the last few years, we have 
seen--you know, we haven't expanded our nuclear power base, 
although we hope to do that. And, frankly, I guess I want to go 
to some questions though about what we have done as compared to 
Fukushima. And I will go to those directly. You discussed the 
NRC reactor oversight process in the 5 columns of an action 
matrix in your testimony. Column 1 consists of the best safety 
and security performance. Column 2 and 3 requires excessive 
increases in NRC oversight and enhanced inspection. Would you 
agree that increased oversight and enhanced inspection means 
that there may be safety or security issues that require the 
Commission's attention?
    Ms. Macfarlane. Certainly that require the staff's 
attention, yes. And the Commission overall, certainly.
    Mr. Green. OK. You state that there are 78 reactors in 
Column 1 and 14 reactors in Column 2 and 7 in Column 3. Would 
you agree that the majority of our Nation's nuclear reactors 
are meeting the highest safety and security standards?
    Ms. Macfarlane. The majority of our nuclear reactors are 
operating safely, yes.
    Mr. Green. Recently, in the Federal Register, the NRC 
acknowledged that there are currently 56 rulemakings underway 
at the Commission. Do you know how many of those relate to 
safety or security?
    Ms. Macfarlane. I am not sure exactly. Fifty-six 
rulemaking, they may--they usually do relate to safety and 
security----
    Mr. Green. Well, that is----
    Ms. Macfarlane. They may not all be around nuclear 
reactors. They might be around nuclear materials, too.
    Mr. Green. If the majority of our nuclear fleet is already 
meeting the highest standard, what new analysis or evolving 
circumstances lead to these rules?
    Ms. Macfarlane. Operational experience.
    Mr. Green. OK. Ms. Macfarlane, as you know, in 1998, the 
U.S. government breached its contractual obligations with 
respect to disposing of nuclear waste. Thus far, every 
challenge has been brought before the court system has agreed 
that the government must fulfill our obligation. CBO estimate 
that taxpayer liability related to the breach of the contract 
has reached approximately $12.3 billion. Additionally, the 
taxpayers have spent approximately $15 billion, give or take, 
on the development of Yucca Mountain. And, finally, Yucca 
Mountain is designed to handle about 70,000 tons of waste. At 
our current levels, our Nation would exceed Yucca's capacity 
even before it opens. In an NRC Order CLI 1308, it was written 
that the Commission would take appropriations requests under 
advisement in the course of the Agency's budgeting process. 
With $30 billion in taxpayer funding and liability and waste 
that exceeds capacity, why would the Commission not request 
funding for a licensing process for the--Yucca Mountain?
    Ms. Macfarlane. Well, we are--as I said earlier, we are 
moving forward with the Court's order. And any further 
budgeting decisions will be Commission decisions.
    Mr. Green. The courts determined the Commission must move 
forward. The administration determined that Yucca Mountain's 
not the answer. If that--if the answer isn't Yucca Mountain, 
how do we meet these obligations by the Court?
    Ms. Macfarlane. That is, you know, a policy decision that I 
am going to let you all wrestle with.
    Mr. Green. Well, I think the House, we can probably deal 
with it. But we do have some issues with the Senate.
    Ms. Macfarlane. Um-hum.
    Mr. Green. In February 2013, the Commission testified that 
restart of the Yucca process and completing the safety 
evaluations, that is SER, the NRC would need approximately 6 to 
8 months, and has estimated $6.5 billion--million. In September 
of '13, Commission stated that to complete the SER, it required 
12 months and estimated $8.3 million.
    Ms. Macfarlane. Um-hum.
    Mr. Green. In November, it was reported the NRC staff 
estimated cost of $11.1 million. And the last time the 
subcommittee has addressed Yucca Mountain, we acknowledged that 
to complete the SER, Volumes 2 through 5, might require 
additional resource 6.5. Is 8.3 the correct number? And why has 
the estimate increased over $2 million over the last 6 months?
    Ms. Macfarlane. As we said in the Order, the staff's 
estimate has changed as a result of the proceeding being 
suspended for a number of years. And saying any more on this 
topic is not appropriate, because of the Motion before the 
Commission.
    Mr. Green. Well, and I know--if we provide guidance, Mr. 
Chairman, from the House side, hopefully the Senate would 
recognize there is a Court decision we have to respond to. And 
we obviously--I know other countries--and I have been to other 
countries to see their nuclear waste facilities, and it would 
be nice if we actually led in that effort, even though some of 
our other countries are a little further ahead of us. So thank 
you, Mr. Chairman, for your courtesy. Appreciate the extra 
time.
    Mr. Shimkus. Gentleman's time has expired. The Chair now 
recognizes the very patient Mr. Terry from Nebraska for 5 
minutes.
    Mr. Terry. Thank you, Mr. Chair.
    Mr. Shimkus. I think he wants to weigh in on this a little 
bit.
    Mr. Terry. Maybe. First, I would like to say the issue I 
think with the NRC is the public has to have confidence in you. 
And there has been--I think we can universally agree that there 
was a breach in confidence because you couldn't trust the NRC 
at one point in time. And I really appreciate you creating a 
collegial atmosphere, or reestablishing--because if you aren't 
working together, I don't think you can truly be an effective 
body. So I appreciate you restoring some level of camaraderie 
and not a culture of distrust. On the other hand, it has been 
33 years since Congress has really looked into the rules and 
procedures. And, frankly, because of the breaches that occurred 
prior to your arrival, Chairman, I think it is legislative 
malpractice to not recognize that there has been--well, now we 
know, some holes in those procedures. And I think probably the 
heart of that is the misuse of emergencies. And the heart of 
this bill is really about emergencies.
    So I want to ask a couple of questions here.
    So do you believe that there should be a declaration of an 
emergency?
    Ms. Macfarlane. Well, first of all, Congressman, thank you 
for the----
    Mr. Terry. I will do a Dingell. That is pretty much a yes 
or no question.
    Ms. Macfarlane. OK. Well, first of all, I just want to 
compliment you on the work that you put into this bill, and the 
thinking that you put into this bill. Of course, one should 
declare an emergency.
    Mr. Terry. All right. Well, that is not in your rules and 
procedures. And so that is one of I think probably the most 
important part of this is just to say that the Chair does have 
to physically say there is an emergency, and not keep that from 
your fellow Commissioners. Now, the bill says--and I kind of 
enjoyed some of the questions by my colleagues, because they 
made it sound like you have to declare the emergency and then 
right away call the Commissioners. The bill actually says 24 
hours. Is that not enough--is that too much time or too little 
time to notify the other four sitting at that desk that you 
have declared an emergency?
    Ms. Macfarlane. I think it really would depend on the 
particular situation. I don't know that we can imagine all the 
situations that can come forward.
    Mr. Terry. Can you imagine--OK. And let me go--because we 
actually then define in here what an emergency is, and that is 
just simply that it is a safety threat.
    Ms. Macfarlane. Or a security threat.
    Mr. Terry. Or a----
    Ms. Macfarlane. We also are responsible for the security at 
nuclear facilities.
    Mr. Terry. Well----
    Ms. Macfarlane. And I am a little concerned about the 
security language in the bill, which requires the NRC to wait 
for another Federal Agency to declare a security threat at a 
reactor before the NRC can act.
    Mr. Terry. Well, I think maybe--I think you are misreading.
    Ms. Macfarlane. The NRC is responsible for security at 
reactors.
    Mr. Terry. OK. Well----
    Ms. Macfarlane. We practice this with our licensees.
    Mr. Terry. All right. Well, then I disagree with that 
interpretation. But if you would like to work further on that, 
that is fine. You--are you against the emergency provision?
    Ms. Macfarlane. In this bill?
    Mr. Terry. Yes.
    Ms. Macfarlane. Yes, I am.
    Mr. Terry. And you said it will have unintended 
consequences. Can you tell me what the unintended consequences 
would be of----
    Ms. Macfarlane. Well----
    Mr. Terry. Will you let me finish, please?
    Ms. Macfarlane. Sure.
    Mr. Terry. Of having to notify the four people on your 
right and left, the two on your right and two on the left that 
you have declared an emergency?
    Ms. Macfarlane. I have said earlier and previously before 
this body, and I pledge again to let my colleagues know in the 
event of an emergency, and certainly let you all know--the 
oversight committees know.
    Mr. Terry. OK. Well, then if you have pledged it, why----
    Ms. Macfarlane. In the event--
    Mr. Terry. I think the next Commissioner should have the 
same responsibilities. But until we change the rules, I don't 
know if the next person that takes over your role will be as 
responsible as you. And that is why your prior chairman has 
shown that we have a big hole in the procedures. And the next 
one may be as rogue or as I think Mr. Green was kinder by 
saying imperial. But that is why we have to change the rules. 
And I don't think a 24-hour notice to your colleagues and to 
this committee if there is a safety threat is that 
extraordinary. I think it is pretty reasonable. And the other 
part of that is you do have the power to declare, under this, 
the emergency. It is only if it is more than 30 days where we 
want the Commissioners to actually be involved. Before then, 
for 30 days, all you have to do is within 24 hours say there is 
an emergency, and that is--you are satisfied. And it is hard 
for me to get through my mind, turning to your assistant and 
say, ``Make sure we email our Commissioners.'' That took 5 
seconds for me to say. But that is extraordinary for you? I am 
just having a hard time with that. Yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentlelady from California, Ms. Capps, for 5 
minutes.
    Mrs. Capps. Thank you, Mr. Chairman. And I thank you all on 
the Commission for being here today. As you know, I represent 
Diablo Canyon Nuclear Power Plant, which is owned and operated 
by PG&E.
    Diablo Canyon is a major contributor to our local economy. 
And, obviously, it plays an important role in our State's 
energy portfolio. But it also sits on two earthquake faults, 
the Hosgri and the Shoreline. So safety is obviously always a 
top priority. Now, every power plant must be built according to 
a safe shutdown earthquake SSE standard, as we know, which is 
the maximum ground shaking that key safety elements are 
designed to withstand so it can safely shutdown.
    As a condition of Diablo Canyon's operating license, the 
NRC required its safety systems to be evaluated using industry 
standard--calculations and tests to ensure that it could meet 
the SSE levels. But the NRC did not require the same industry 
standard calculations and tests to be used to evaluate the safe 
shutdown standards for an earthquake along the Hosgri Fault. In 
other words, there is a lot of new information since those 
standards were set, which was predicted to be stronger than the 
reactor was licensed to withstand. I believe that is sort of 
commonly understood now.
    And since then, of course, we have discovered a Shoreline 
Fault in the same reason, which is even closer to the reactor 
and also not yet fully understood. It makes a lot of my 
constituents very nervous. To my knowledge, the NRC has still 
not required safety testing using the same industry standard 
methodology that originally required in its operating license. 
In other words, there is some inconsistency here. And now, Dr. 
Michael Peck, the NRC's former senior resident inspector at 
Diablo Canyon, even filed a noncompliant--nonconcurrence report 
with the NRC, saying that the reactor was not in compliance 
with its license.
    Chairwoman Macfarlane, in light of Dr. Peck's expert 
opinion, what is the NRC doing to ensure that the reactor is in 
compliance with the seismic safety requirements of its 
operating license?
    Ms. Macfarlane. The Diablo Canyon Nuclear Power Plant is in 
compliance with----
    Mrs. Capps. Well, he has written this report that is 
dissenting. I would ask you to answer in light of that.
    Ms. Macfarlane. Right. And the NRC's view is that the 
Diablo Canyon plant is within compliance, that there are 
actually three design basis earthquakes. The design basis--the 
double design basis, as you mentioned, and also the Hosgri 
earthquake one. That was discovered in the 1980s. The plant was 
reevaluated to see if it could withstand that, and it can. When 
the Shoreline Fault----
    Mrs. Capps. I am sorry----
    Ms. Macfarlane. It was reevaluated----
    Mrs. Capps. To see if it could withstand the Hosgri----
    Ms. Macfarlane. The Hosgri. Yes. And it can. And the 
Shoreline Fault was evaluated by independent analysis, and that 
fault is bounded by the design basis earthquakes. An earthquake 
that that fault could produce is bounded by the design basis 
earthquake.
    Mrs. Capps. But----
    Ms. Macfarlane. So the plant is considered within 
compliance.
    Ms. Capps . Let----
    Ms. Macfarlane. But let me say that we are now--we have 
asked all nuclear power plants in the country to reevaluate 
their seismic hazard. And so Diablo Canyon is in the process of 
reevaluating their seismic hazard. And their seismic hazard 
reevaluation is due into the Commission in March of 2015.
    Mrs. Capps. Will this new evaluation of Diablo Canyon that 
they are doing themselves be required to prove that the reactor 
can withstand the stronger Hosgri and Shoreline earthquakes, 
using--are you using the same industry standard methodology 
required in the operating license for the safe shutdown 
earthquake?
    Ms. Macfarlane. We are using the most up to date 
methodologies to do the seismic hazard reevaluation.
    Mrs. Capps. Do you believe they fully incorporate the--you 
do believe that?
    Ms. Macfarlane. To the best of my knowledge. But I can 
certainly take this for the record and do a more--give you a 
more detailed answer.
    Mrs. Capps. Well, it is a complicated issue. And I--this is 
just a 5-minute question. But I wanted to make sure that you 
could provide me with a copy of Dr. Michael Peck's differing 
professional opinion. Are you able to do that, please?
    Ms. Macfarlane. I will have----
    Mrs. Capps. So that I could have a copy of it?
    Ms. Macfarlane. Yes, I will have to check on that. But I 
will take your larger question for the record here and give you 
a more detailed answer.
    Mrs. Capps. OK. Your response is rather troubling, 
particularly in light of the recent changes in NRC's 
transparency policies. I am curious to know whether, you know, 
this new policy of the fact that only the ranking member or the 
chairman are allowed to ask for information, does--how that 
affects your decision.
    Ms. Macfarlane. You know, I want to be clear here. We 
haven't significantly changed our policy. We are going to be as 
responsive and as transparent as we ever were. And, certainly, 
when you have concerns about a reactor within your district, we 
are going to respond as completely as possible.
    [The information appears at the conclusion of the hearing.]
    Mrs. Capps. I appreciate this. And I know, Mr. Chairman, I 
just want to make one final comment, because I am looking 
forward to getting these documents soon. This is of particular 
interest to my constituents. I am pleased to hear that in 
response--that in light of the recent changes in the NRC's 
transparency policies that you are still willing to get a 
response to us. But I am very troubled by these new policies 
that really preclude transparencies from members of a committee 
with oversight to be able to ask directly for information, both 
as a member of the committee and as the one with a nuclear 
plant in my district. I find the policy itself to be 
unacceptable. And that is with no offense to my good friends, 
the chairman and ranking member. But I should be able to freely 
address your committee. And it sounds like you are----
    Ms. Macfarlane. And you still are. You still are.
    Mrs. Capps. I appreciate that.
    Ms. Macfarlane. But I hear your concerns.
    Mrs. Capps. All right. Thank you very much. Yield back.
    Mr. Shimkus. The gentlelady's time has expired. The Chair 
now recognizes the gentleman from Texas, Mr. Olson, for 5 
minutes.
    Mr. Olson. I thank the Chair and welcome the Commissioners. 
Seventy-seven point nine miles from my house is the South Texas 
Project. As you all know, there are two reactors there. Unit 1 
celebrated its 25th anniversary this past August. The South 
Texas Project is in Hurricane Alley. And yet for 25 years now, 
they have provided safe, reliable power for Southeast Texas and 
our whole Gulf Coast.
    I want to follow up with some of the questions from 
Chairman Whitfield. My district also is a home to Fleur, a 
large construction company that is looking at making some small 
modular reactors using that technology. As you all know, these 
are smaller, more affordable reactors that could someday make 
new nuclear power available to more places.
    My first question is to you, Chairman Macfarlane. The 
certification of new reactor designs by the NRC is best 
described as deliberate. And that is good. But as this process 
goes, it is sometimes too deliberate. As Chairman Barton said, 
it takes on average 7 years. I know DOE has a role in this. But 
safety is critical. Can you tell me what has caused these 
delays in designs in cases of the past, and what can you, the 
NRC, do to keep those small reactor designs reasonable and 
timely?
    Ms. Macfarlane. Thanks for the question, Congressman. The 
design certification process is a two-way street. And as I 
mentioned before, we do need high quality applications. And so 
what has often delayed the design certification process is 
questions that we have about the application, because we didn't 
get a high quality product to begin with. Now, to try to avert 
that in the case of small modular reactors, we have been 
working with the potential applicants, telling them what they 
need to provide to us and making sure that they clearly 
understand that.
    Mr. Olson. OK.
    Ms. Macfarlane. Maybe my colleagues would like to comment 
as well?
    Ms. Olson. I will just ask my question. Ms. Svinicki, is 
that close, please? Anything to add, ma'am?
    Ms. Svinicki. I would note that some of the small modular 
reactor designs that we are aware of are more innovative than 
others. I think that where the design is less similar to 
something we have previously approved, it is likely that we are 
going to have a series of questions that we will want to ask to 
assure ourselves of safety.
    Mr. Olson. Commissioner Apostolakis, sir?
    Mr. Apostolakis. During the reviews, especially when the 
design has new aspects to it, technical issues arise that 
require response from the applicant and then an evaluation by 
the NRC staff. This happened with Westinghouse AP1000, and with 
General Electric's ESBWR. And these technical issues 
unfortunately are of the nature that, you know, they are not 
resolved within a week or 2 weeks or a month. So that is a 
cause for delay. I don't know what issues could come up with 
the SMRs being reviewed. We will have to see. But I think, you 
know, 5 to 7 years is not an unreasonable time.
    Mr. Olson. Yes. I have to get--Commissioner Magwood and 
Commissioner Ostendorff, I have to get your answers for the 
record, because I have one more question I want to ask just for 
you. I want to call you Captain Ostendorff, because as a guy 
who spent his Navy career chasing submarines, it is great to 
welcome a submariner here. And as a fellow graduate of the 
University of Texas Law School, welcome, welcome, welcome. I 
know you will be looking forward to this weekend, the football 
game that is going to happen between your alma mater, the Naval 
Academy, and the Army at West Point. And with all due respect 
to the chairman here, we are looking for 12 straight victories. 
Go Navy. Before we go.
    But, actually, I am a strong supporter of nuclear power. 
And coming from a State that needs more baseline power, we need 
more nuclear power plants. I mentioned South Texas. They have 
been trying the two reactors for about a decade, stops and 
starts, not because of all you have done. There has been some 
things happen back home in Texas. But I am excited because we 
built two new plants there in Georgia and South Carolina. I 
will ask you, Captain, what have you learned with these new 
plants, because this happened--it has been a long, long time 
since we have authorized new reactors. What have you learned, 
good and bad, going forward, so I can help South Texas?
    Mr. Ostendorff. Well, one thing that I will comment on, I 
can go back to my Navy experience. Thirty-three years ago, I 
was on my second submarine being built in Newport News 
shipyard, where I had responsibilities for supervising the 
testing of the propulsion plant in the Newport News shipyard. 
And this was the 25th submarine of this class being built at 
this time. This was 1980, the U.S.S. Atlanta. And for the 25th 
submarine being built with the same design, every week there 
were still new issues that came up about constructability. 
Where does this pipe hanger go? Where do you put this mount? 
How do you do this particular welding technique in this 
orientation? And for a very mature program for submarine 
construction at the time, we were continuing to learn lessons 
routinely. And so we should not be surprised if Vogtle, Watts 
Bar, and Summer construction that as we go through that process 
that we learn new lessons, because there will be some issues 
that come up that have not been anticipated.
    Mr. Olson. I am about out of time. I want to say--close by 
saying go Navy, beat Army. I yield back.
    Mr. Shimkus. The gentleman is out of order. The Chair 
recognizes the chairman emeritus, Mr. Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chair, I thank you for your courtesy. I 
commend you for the hearing. I welcome you, Chairman Macfarlane 
and members of the Commission. I want to thank you for your 
recent response to the letter sent by myself and a number of my 
colleagues on both sides of the aisle, asking the Commission to 
complete work on the Safety Evaluation Report for Yucca 
Mountain. I am encouraged by the recent order to finish the SER 
and look forward to its completion.
    Now, Madam Chairman, as I just mentioned, on November 18 
the NRC ordered the staff to complete work on the Safety 
Evaluation Report for Yucca Mountain, and that such work would 
take approximately 12 months. This timeframe made a few 
assumptions, and I would like to ask you some questions about 
those assumptions. On page 11, footnote 38 of the Commission's 
Order, first, will the Commission of the SER be given a high 
priority, yes or no?
    Ms. Macfarlane. It will be given a high priority.
    Mr. Dingell. Now, Madam Chairman, approximately how long do 
you anticipate will it take to gather the necessary key 
technical reviewers?
    Ms. Macfarlane. As I was able to say earlier, we are 
expecting a plan from the staff on moving forward on this later 
this month. Saying any more on this issue is not appropriate, 
because we have some pending Motions before the Commission on 
our Order.
    Mr. Dingell. Could you submit some quick, dirty response to 
the committee on that particular point? Now, Madam Chairman, is 
your staff developing a plan on how to move towards completion 
of the SER, yes or no?
    Ms. Macfarlane. Yes, we are.
    Mr. Dingell. When will such plan be completed, can you give 
us a rough answer on that, please?
    Ms. Macfarlane. The plan to move forward will be completed 
later this month.
    Mr. Dingell. It is my understanding that Nye County, 
Nevada, has appealed the SER Order. Does the NRC have 
sufficient funds to complete both the SER and to respond to Nye 
County's appeal?
    Ms. Macfarlane. Well, certainly, all litigation matters on 
Yucca Mountain come from the nuclear waste funds. In terms of 
specific amounts of money, I--because of this Motion before us, 
I can't go into any more detail.
    Mr. Dingell. Well, I have my great doubt that you will be 
able to do so. And as soon as you can tell us that you don't or 
you do or you need additional money for this, it would be 
appreciated if you would communicate that to us, because we 
want you to have the resources you need to do the job you have 
to do. Now, Madam Chairman, approximately how much is it going 
to cost the NRC to fully respond to Nye County's appeal?
    Ms. Macfarlane. I do not know.
    Mr. Dingell. If you get some loose time when you get back 
to the Commission, would you see what you could tell us on that 
for the record? Now, Madam Chairman, in responses to questions 
on the record from Chairman Shimkus from July--from the July 
24, 2012, hearing, Commissioners who attended that hearing 
expressed general support on the internal commission procedures 
implemented in 2011. It is my understandings that these 
procedures are advised every 2 years, and the Commission is 
currently in the process of further revising these, is that 
correct?
    Ms. Macfarlane. That is correct.
    Mr. Dingell. Now, I am going to try to do--you are Polish, 
aren't you, Commissioner?
    Ms. Svinicki. The name is Slovak. My grandfather came to 
the upper peninsula of Michigan to work in the iron mines there 
from Slovakia.
    Mr. Dingell. Svinicki.
    Ms. Svinicki. Well, I have Americanized it to Svinicki, 
yes.
    Mr. Dingell. I like the Slovak much better. But anyway, in 
any event, Commissioner, welcome. It is always good to see a 
University of Michigan graduate.
    In your QFR response, you stated that the Commission was 
gaining operational experience from the 2011 internal 
procedures. Now that they have been in place for 2 years, do 
you agree that the internal procedures and the review process 
allow the Commission to properly carry out its duty in a 
collegial and collaborative way, yes or no?
    Ms. Svinicki. Yes, and we are.
    Mr. Dingell. Now, would the other Commissioners please give 
us a yes or no answer on that, too? Sir?
    Mr. Apostolakis. Yes.
    Mr. Dingell. Madam Chairman?
    Ms. Macfarlane. Yes.
    Mr. Dingell. Sir?
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Mr. Dingell. Now, do the Commissioners believe that the 
current ICP are working? Would you each answer yes or no, if 
you please?
    Ms. Svinicki. Yes, but we do have the procedures under a 
biannual review process. So they can--we are always looking 
where they might be improved.
    Mr. Dingell. Sir?
    Mr. Apostolakis. Yes and no.
    Ms. Macfarlane. Yes.
    Mr. Dingell. Sir?
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes, but I agree with Commissioner 
Svinicki's comment that they are under review again.
    Mr. Dingell. Now, for all the Commissioners, do you believe 
that every Commissioner's concerns and input have been 
considered during the current ICP process? In other words, have 
each of you had your considerations and concern considered in 
part--in the process? Yes or no, Commissioner Svinicki?
    Ms. Svinicki. Yes, my colleagues evaluated my modifications 
and approved or disapproved them.
    Mr. Apostolakis. Yes.
    Ms. Macfarlane. Yes, we considered each others.
    Mr. Dingell. Sir?
    Mr. Magwood. Yes, we all worked together on it.
    Mr. Ostendorff. Yes.
    Mr. Dingell. Now, if a Commissioner had suggested a change 
to the ICP, do you each believe that such a suggestion would be 
considered in good faith, yes or no?
    Ms. Svinicki. Yes.
    Mr. Apostolakis. Yes.
    Ms. Macfarlane. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Mr. Dingell. I hope that in no way did you feel distressed 
at those questions. But I want to see to it that the Commission 
gets the fullest support of this committee in doing its 
responsibilities and in having a harmonious process, because 
God knows you are having enough trouble doing your job down 
there because of outside interference of all sorts. Thank you, 
Mr. Chairman, for your courtesy.
    Mr. Shimkus. The gentleman's time expired. The Chair now 
recognizes the gentleman from Illinois, Mr. Kinzinger, for 5 
minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you all 
for being here today. Earlier this year, a letter was sent to 
the NRC raising concerns about the staff proposal to mandate 
filter systems. As it happens, the proposal not only failed a 
cost benefit analysis in which there were serious concerns in 
regards to an understated cost estimate, but the advisory 
committee on reactor safeguards--your expert advisory body also 
disagreed with the proposal's approach.
    In the response letter that was received, the NRC stated 
that has followed has followed its process for ensuring that a 
sufficient basis exists for imposing regulatory requirements. 
Chairman Macfarlane, would you agree that the current NRC 
practice states that a sufficient basis for imposing regulatory 
requirements means that the change has been shown to be 
necessary for adequate protection of public health and safety, 
or as required by the Backfit Rule?
    Ms. Macfarlane. Yes, that is correct.
    Mr. Kinzinger. Would any other Commissioners like to 
comment on that? No?
    OK. The issue here is that the NRC staff have tried to 
override the quantitative analysis related to filtered vents in 
order to escape a challenge under the NRC's Backfit Rule by 
recommending that the Commission vote to issue an order. 
Chairman Macfarlane, isn't that process normally reserved for 
matters that are necessary for adequate protection of public 
health and safety?
    Ms. Macfarlane. I don't believe the staff tried to override 
the Backfit Rule or the cost benefits analysis. I think they 
did their--a thorough cost benefit analysis according to the 
information they had.
    Mr. Kinzinger. Is that the opinion of all the 
Commissioners? Sir?
    Mr. Ostendorff. I want to comment, Congressman. Thank you 
for the question. I think our staff did an outstanding job of 
presenting a very difficult issue to the Commission for our 
decision. And I don't think they tried to circumvent or go 
around any rule. I think there are certain matters that require 
judgment. They teed it up to the Commission who made a 
decision, and we are moving forward. I applaud our staff for 
their work in this effort.
    Mr. Kinzinger. Well, I would like to--I am not going to 
take all my time, actually. I would like to close by offering 
my support for Congressman Terry's NRC reform legislation. My 
friend and I are working on language to limit the Commission's 
use of orders for only urgent and significant safety needs. A 
solid line must be issued to ensure discipline in the Agency's 
processes so that the regulations can provide some actual 
stability to the issues. With that, Mr. Chairman, I will yield 
back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
will now recognize Ms. Castor from Florida for 5 minutes.
    Ms. Castor. Well, good morning, Chairman Macfarlane and 
Commission members. A decommissioning plan was recently 
submitted for the Crystal River Nuclear Power Plant in Florida. 
It is a distressing situation all the way around because the 
utility attempted to repair the plant. They exacerbated 
problems, resulting in cracks in the containment walls. The 
repair costs soared. And so the utility chose to shut it down. 
It has gotten a lot of attention in Florida and especially 
among rate payers because they are on the hook because of the 
law in Florida that said rate payers pay in advance for 
constructing the plants, and now they are going to be on the 
hook for those costs and then costs--some of the costs of 
shutting it down, without generating 1 kilowatt hour of 
electricity. So this is an important lesson for States around 
the country to have safeguards if you are going to proceed to 
have an advance recovery fee.
    So they have--the utility has chosen safe storage as the 
decommissioning option, which will--they estimate will cost 
$1.2 billion. And this will proceed now over 60 years to 2074. 
Could you please review at this point in time, now that you 
have received the decommissioning plan, what the 
responsibilities are of the NRC in review of that plan and 
public comment?
    Ms. Macfarlane. Sure. It is--the NRC maintains an oversight 
role throughout the entire decommissioning of the facility. We 
continue to inspect the facility, especially during active 
decommissioning. As--after we receive a--the plan from the 
licensee, we will hold a public meeting and discuss how the 
licensee decides to move forward and accept public comment on 
this. We also strongly encourage our licensees to form 
community advisory boards for decommissioning process. And, in 
fact, I did meet with the licensees yesterday and personally 
encouraged them to do this.
    Ms. Castor. Terrific. Now, there are other plants around 
the country that are currently in safe storage. I believe Three 
Mile Island is. Name a few others that are----
    Ms. Macfarlane. Indian Point 1. Zion was in safe storage. 
They are now actively decommissioning. So----
    Ms. Castor. And so in your experience with these plants 
that are decommissioned and in safe storage, what is the 
likelihood that the $1.2 billion cost estimate at this time 
will remain static, and what is the likelihood that the cost 
for decommissioning and attention to the plant over time will 
increase?
    Ms. Macfarlane. You know, I am not that familiar with the 
costs over long periods of time. So let me take that for the 
record.
    Ms. Castor. OK. Do any of the other Commissioners have a 
comment on that, in the likelihood? OK. On another topic, the 
Terry bill proposes to legislate how official international 
travel by all Commissioners is approved. Some might argue that 
the provision falls into the category of micromanaging the 
Commission. But if the majority intends to legislate in this 
area, we need to have a better understanding of the 
Commissioner's travel. According to information provided by the 
Commissioner's, some of them have been traveling abroad quite a 
bit. Now, some of this is to be expected in the wake of the 
Fukushima disaster.
    Commissioner Magwood spent 52 days in 2013 on official 
foreign travel to Europe, Asia and South America. That is two 
months of international travel. That seems like quite a lot, 
more than 100 days of traveling abroad on official business 
over the last 2 years. And Commissioner Svinicki traveled for 
43 days this year internationally. This seems--seems to be 
bordering on the excessive, and I think we are going to need an 
accounting here, especially when the primary responsibilities 
of course are in the United States. Now, I think it is 
reasonable, you have got to understand what is happening in the 
field internationally. But since we are expected to markup 
legislation that addresses this travel, I would like each of 
the Commissioners to provide for the record an accounting of 
their international travel, and an explanation of why it is 
worth the hundreds of thousands of--of taxpayer dollars that it 
costs. And thank you, and I yield back the rest of my time.
    Mr. Shimkus. The gentlelady yields back her time. The Chair 
now recognized the gentleman from Virginia, Mr. Griffith, for 5 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate you all 
being here. And as I have said before, one of my first 
experiences was while there was a fight going on. And so I do 
appreciate what all of you have done to create an atmosphere of 
collegiality. So I do appreciate that.
    In regard to Mr. Terry's bill, I happen to agree with him 
that it doesn't seem like it is too onerous. Perhaps the 
language can be worked out. Madam Chair, if you will work with 
him on the language to make it straight? But when I was a kid, 
there was a TV show, ``Lost in Space,'' and the robot would 
say, ``Danger, Will Robinson! danger!''
    Ms. Macfarlane. I remember it well.
    Mr. Griffith. And it seems to me there ought to be some app 
or way that you can quickly get a message out that would say, 
``Danger, Will Ostendorff! Danger, Will!'' I would ask you as 
well in regard to the Inspector General's reports, the one on 
June 6, 2011, and then also the one on June 26, 2012, have you 
had an opportunity now to read those? The last time, you had 
just gotten started. And so----
    Ms. Macfarlane. Yes, I have.
    Mr. Griffith. You have read those. And that I think is the 
impetus behind the Terry bill is that in both of those reports, 
it points out that there was some conflicts over what 
information could be given to the other members of the 
Commission by the Chairman, and that led to a lot of the angst 
that was going on prior to your arrival. So I think that while 
I support the bill, I am sure that Mr. Terry will work with you 
in regard to working out some of the glitches that are there 
that he is trying to do what is right, you are trying to do 
what is right. I am sure you all can get that worked out.
    Now, according to NRC practice, new requirements must be 
shown to be necessary for adequate protection of public health 
and safety, or be justified by cost benefit analysis as 
required by the Backfit Rule. I would like to ask the Clerk to 
put up the chart ``Average Fleet Implementation Cost Compared 
to NRC Estimates.'' Do you all have that? There you go.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Griffith. When I look at this chart in the context of 
cost benefit analysis, I wonder how the use of more accurate 
cost estimates might have impacted the analysis done in support 
of new requirements. Madam Chair, or any other member, do you 
have any comment on that?
    Ms. Macfarlane. I am not sure where your numbers come from. 
I would be happy to examine them more in more detail and get 
back to you on that.
    Mr. Griffith. If you could do that for the record, I would 
appreciate it very much. Do you have any plans for undertaking 
any review of previous cost benefit analysis to determine--and 
I recognize you don't know where these numbers came from. But 
do you have any plans to determine if there is more accurate 
cost estimates that might be done? Assuming these numbers to be 
accurate, do you have any plans to do that, ma'am?
    Ms. Macfarlane. You know, in general, I think our staff 
does a good job with their cost benefit analyses. And they rely 
on the best available information.
    Mr. Griffith. Yes, ma'am?
    Ms. Svinicki. If I could supplement the Chairman's answer 
by noting that the Commission has heard evidence of great 
disparities in the cost estimates. And so we did, as a 
Commission, direct the NRC staff to work to find case studies 
and instead of arguing about estimates before the fact, to take 
a case where we had estimated a cost and the industry has 
already implemented it, look at what were those actual costs of 
that particular item. There are some sensitivities on the 
industry side to sharing some of this business information. But 
we asked for volunteers to perform what we were calling case 
studies and looking at some of our regulations. So that way we 
could look at their actual cost to implement versus our 
forecast in the hope--and with the objective of maybe improving 
the accuracy of our cost estimating.
    Mr. Griffith. Yes, ma'am. Thank you about that. On a 
separate topic, there have been, as you all have previously 
talked about, four nuclear power plants permanently shutdown in 
the past year. One more will shutdown next year. And reports 
persist that there may be others. As a result of the 
decommission process, this has garnered a lot of public 
interest. But I am particularly concerned about the monies 
coming in. You talked about the constant money. And, obviously, 
there is some other money. But decommissioning plants don't pay 
as much in NRC fees as operating plants. That is correct, is it 
not?
    Ms. Macfarlane. It is correct.
    Mr. Griffith. And so then the question is, as these plants 
are closing down and your funds are decreasing from what they 
have been paying as operating plants, how is the NRC going to 
handle the decreases in funds?
    Ms. Macfarlane. Operating plants are required to establish 
a decommissioning fund, which they set aside for 
decommissioning. And we evaluate the amount of money that they 
have in that fund and their plans for that fund every 2 years.
    Mr. Griffith. But I mean over time, after they have 
decommissioned, if you have fewer plants, there is going to be 
less money coming in. Have you all started making plans to deal 
with that reduction in monies?
    Ms. Macfarlane. I think we are OK right now. But let me get 
back to you on the record with more detail on this.
    Mr. Griffith. I appreciate that very much. And again, thank 
you for your testimony here today for all--to all of you. And I 
yield back.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the ranking member of the full committee, Mr. 
Waxman, for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman. In my 
opening statement, I expressed serious concerns about NRC's new 
policy for responding to congressional requests for nonpublic 
documents. I would like to read the previous policy: ``The 
Commission's general practice is to provide sensitive documents 
requested by members of its Congressional oversight committees. 
It will also provide sensitive documents to other Members of 
Congress when the documents address matters pertaining to his 
or her State or district.''
    I thought that was a reasonable policy. It enabled the 
members of this committee and members with reactors in their 
districts to obtain the documents necessary for them to conduct 
oversight.
    The new policy is very different. The NRC will only provide 
nonpublic documents to the chairman and ranking member of the 
committee, and it will provide documents only after pursuing 
alternatives that do not involve producing requested documents. 
Chairman Macfarlane, do you acknowledge this committee's 
constitutional responsibility to provide oversight of the 
Executive Branch?
    Ms. Macfarlane. Of course.
    Mr. Waxman. And do you concede that in the absence of a 
claim of Executive Privilege, the NRC has no legal basis to 
withhold requested nonpublic documents from Congress?
    Ms. Macfarlane. Not from its oversight committees and its--
and the chairman.
    Mr. Waxman. The new policy also provides each Commissioner 
the opportunity to review documents before they are turned over 
to Congress and to object to producing specific documents. 
Chairman Macfarlane, this policy creates a potential for 
significant delay in responding to oversight requests. How much 
time are Commissioners given to review documents before they 
are produced to Congress?
    Ms. Macfarlane. I think we certainly want to maintain a 
cognizance of what documents are going in which direction. And 
the decision to produce documents or how we will be responsive, 
shall I say, is a Commission decision. And, of course, we will 
operate with the most expediency possible in being responsive 
to our oversight committees.
    Mr. Waxman. Well, I have serious questions about allowing 
individual Commissioners to object to producing specific 
documents to Congress. The NRC's policy does not explain what a 
legitimate basis for such an objection might be. And in the 
absence of a claim of Executive Privilege, there is no legal 
basis for withholding the documents. Chairman Macfarlane, do 
you think individual Commissioners should have the right to 
prevent documents from being provided to Congress even when 
there is no legal basis for withholding these documents?
    Ms. Macfarlane. I think--and certainly not. And this--
again, I just want to be clear. This is a--moving forward with 
any kind of document production is a Commission decision.
    Mr. Waxman. Well, when Congress requests documents, we 
should get those documents. For some particularly sensitive 
documents, we need to have discussions about how to protect 
certain information while meeting Congress' oversight needs.
    Ms. Macfarlane. Yes. Um-hum. Exactly.
    Mr. Waxman. But I fear this new policy is much too 
restrictive. Would you commit to thinking through the concerns 
that we are raising today with your colleagues, and to consider 
making changes to the policy to address these concerns?
    Ms. Macfarlane. Absolutely. I will consider your concerns.
    Mr. Waxman. Thank you. And I would like to ask the same 
question of the other members of the Commission. Will you 
commit to thinking through these concerns raised today, and to 
consider making changes to address them?
    Ms. Svinicki. Yes.
    Mr. Apostolakis. Yes.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Mr. Waxman. I thank you. That is very helpful. And I will 
look forward to further communications with you. Thank you, Mr. 
Chairman. Yield back my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the vice chairman of the Energy and Air Quality 
Subcommittee, Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman, appreciate the--
having this hearing. Appreciate all of you being back with us 
today. I know back in February when we had our last hearing on 
the post-Fukushima requirements, I had asked a few questions. I 
want to go back to those, because I haven't gotten those back. 
Maybe you all have that information.
    If we can first pull up the slide that--on cumulative 
effects that we had talked about at the last hearing. Yes.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Scalise. That slide there, I had raised--just to show 
the timeline of regulatory actions for the average owner of 
four plants. And I pointed out how these are a lot of new 
requirements in addition to what is already needed for somebody 
to operate a plant at the highest level of security. And so as 
you look at the slide, and if you look down in the--I think go 
to the next slide, because we got--we have got another slide 
with even more requirements.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Scalise. And if you will notice, in the bottom, there 
is a little box in the bottom right corner that said that this 
slide still doesn't even reflect the tier 2 and 3 Fukushima 
items that will be coming. And that is one of the things I had 
asked about, that is how many of those there are. We were 
hearing they were 40. There wasn't a number that you all could 
give me then, but can you give me a number now at how many we 
are talking about?
    Ms. Macfarlane. How many----
    Mr. Scalise. In addition to all of this?
    Ms. Macfarlane [continuing]. Tier 3 requirements?
    Mr. Scalise. Two or three.
    Ms. Macfarlane. Those are still under discussion at the 
Commission. We are not yet considering some of the tier 3 
requirements.
    Mr. Scalise. OK.
    Ms. Macfarlane. We will see if they will become 
requirements. We haven't decided yet.
    Mr. Scalise. Do you have a number yet that you can give us 
a ballpark?
    Ms. Macfarlane. No.
    Mr. Scalise. When will that come out then? When is the plan 
for that to happen?
    Ms. Macfarlane. The number of items that we will be 
considering?
    Mr. Scalise. Yes.
    Ms. Macfarlane. I can give you that number for the record.
    Mr. Scalise. Because I asked for that in February, and you 
said you would give me that for the record. And I still haven't 
received that from February. When then can I expect to get 
that?
    Ms. Macfarlane. I apologize for that.
    Mr. Scalise. Can you----
    Ms. Macfarlane. We will give it to you with the--as soon as 
we can.
    Mr. Scalise. Before next February, hopefully?
    Ms. Macfarlane. Before next February, yes.
    [The information appears at the conclusion of the hearing.]
    Mr. Scalise. That is good. We are making progress here. 
When we were talking about the cumulative effects, this is an 
issue that the NRC staff agrees can potentially--``can 
potentially distract licensee or entity staff from executing 
other primary duties that ensure safety or security.'' And so, 
you know, again, I would emphasize as you are coming up with 
whatever that number is going to be, 30, 40, 50 new 
requirements, when you look at that chart and those are things 
that are already being done, and I think we have seen our 
facilities have a very high level of security, we sure don't 
want to be putting things in place that would actually take 
away from their ability to keep that high level of security 
when they are already doing a lot of things that are important 
and effective.
    I do want to go now to the next slide, because cost benefit 
analysis is something that is real important, too.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Scalise. When you are putting these items together that 
you are putting together with each of these, you would attach, 
I would imagine, some cost benefit analysis to show what the 
cost is. Because at the end of the day, it is rate payers, it 
is hardworking taxpayers that will pay for whatever proposals 
would come forward. And it has always been a requirement that 
you attach that. If you look here, this shows a history of the 
NRC's estimates. When you come up with specific rules, and you 
can go through--there is a number of rules there that we have 
seen initially was your cost estimate at NRC. And then 
ultimately what the true cost was with the--you know, an 
estimate is nice until you actually find out how it happens in 
the real world. And just to use these, if you look at the low 
end, you were 347 percent off on that cost estimate. On the 
high end, you were 1,449 percent off on your estimate. And each 
time, the estimate was low-balled. It wasn't like sometimes you 
are high, sometimes you are low. In all cases, it seemed--I 
don't know if you all are low-balling the numbers just to make 
it look like it wasn't going to have that much of an impact on 
rate payers. But at the end of the day when you look at the 
real world impacts, it is very dramatic how far off you all 
have been. And maybe if I can ask everybody on the panel here, 
what are you all doing to fix this? I mean, this is--when you 
talk about accountability, if you are off that much, in the 
same way, you are not--again, it is not--you know, everything 
kind of factors out if you are doing--maybe you got good 
modeling. Sometimes you are a little high, sometimes--every 
time you are low-balling the numbers, and in a dramatic way you 
are off. In rate payers pay--this tax payers, families that are 
struggling are paying these costs. And if you come up with a 
rule and say it is only going to cost this, and it ends up 
costing 1,449 percent more, that is something that we ought to 
know before you put that cost on rate payers. So if I could ask 
everybody, just going down the line, if you can address this 
problem?
    Ms. Svinicki. The Commission is aware of some of these 
disparities and has directed the NRC staff to solicit industry 
volunteers who would be willing to provide their business 
information regarding actual costs after the fact. So instead 
of comparing----
    Mr. Scalise. So in addition to all the other requirements 
you are making them do, you are going to ask them to fix this 
for you----
    Ms. Svinicki. But we could not compel the provision of this 
business information by the industry. So we asked the industry 
if they were interested in volunteering because of some of 
these disparities. We have gotten a very energetic response 
that they would like to show us some of the detailed cost 
estimates so that we could work towards the objective of 
improving our cost estimating ability by looking 
retrospectively at how much we were off on some of these and 
what was the cause of it.
    Mr. Apostolakis. The Commission has directed the staff to 
reevaluate and look again at the methodology that they are 
using for cost benefit calculations. And I believe when we 
receive the staff's paper, this kind of slide would be very 
important to consider and ask questions why this is happening 
and see what--whether the staff would actually have found the 
reasons for this disparity.
    Ms. Macfarlane. I agree with my colleagues.
    Mr. Magwood. I agree with what my colleagues have said. I 
would add that the fact that we launched this effort to do 
these case studies indicates that many of us were concerned--we 
didn't see these particular numbers, but were concerned with 
the cost estimating situation. It is very important to get this 
as close as possible. And I for one would like us--like to see 
us do much better.
    Mr. Ostendorff. I would just add to my Commission 
colleagues' comments that our process in working with industry 
is we encourage industry to provide their own estimates to us. 
And our staff considers them. And I think in many of these 
cases--especially I am going to point to the one in the middle, 
the 10 C.F.R. 73 Security, because I have had discussions with 
industry and our staff in this area. I think both sides, both 
the NRC and industry, did not fully understand the complexity 
of some of these procurements of CCTV systems, motion detector, 
other security-type aspects. So I think it is a two-way street 
here. We are not going to pretend to be experts as an Agency in 
these cost estimate matters by ourselves, and we need 
industry's help. And I think both sides have recognized the 
need to do better and work together.
    Mr. Scalise. All right. And, obviously, we got to get that 
better. Thank you, Ms. Macfarlane. Especially, I look forward 
to getting that information by February. And, Mr. Chairman, I 
yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from New York, Mr. Engel, for 5 
minutes.
    Mr. Engel. Thank you, Mr. Chairman. And thank you all for 
being here. Thank you for the job you are doing in many ways. 
It is a very thankless job, but obviously a very important one. 
And we appreciate it, even though we may have some policy 
differences from time to time.
    Chairman Macfarlane, we have discussed Indian Point in New 
York in the past. And I want to revisit it again. It is one of 
the most safety serious issues facing the New York Metropolitan 
region, and I want to urge continued diligence from the NRC. 
Indian Point has an operational history that has been plagued 
by serious questions, unplanned shutdowns, leaking fuel pools, 
inadequate emergency notification and response systems. All 
Members of Congress, and I am one, representing the county in 
which Indian Point is sited have called for its closure, as 
well as our Governor, as well. So it is not something obviously 
that we take lightly.
    Particularly concerning are the changes that H.R. 3132 
would make to the NRC's emergency authorities and response 
structure. I know others on this committee share my concerns of 
some of the inadequacies of the response structure brought 
forth in this legislation. You have heard it. But I would like 
it if you could address some of those concerns. Under current 
law, the Chairman of the NRC holds the authorities necessary to 
save lives and manage disaster. The changes in H.R. 3132, in my 
opinion, would have the NRC governing crisis by committee. And 
we all saw how poorly that worked at Fukushima. So I am told--
and correct me if I am wrong. Before the Chairman could declare 
an emergency, you would have to notify the fellow 
Commissioners, the relevant congressional committees and the 
general public. The facility could well be on its way to a 
meltdown. So I would like to hear from you how you foresee this 
legislation impacting your ability to manage a potential 
crisis, specifically in a major metropolitan area like New 
York?
    Ms. Macfarlane. I think that the Commission procedures are 
adequate at the Agency. I think the Commission is operating 
well, operating collegially. And I don't see any need to alter 
or change the existing procedures, especially with regard to 
emergency powers.
    Mr. Engel. Thank you. Anyone else care to comment? If not, 
I will move on. Chairman Macfarlane, I would also like to ask 
you, in your testimony you mentioned the efforts the NRC has 
been undergoing to determine what regulatory action is required 
to the expedited transfer spent fuel to dry cask storage. I 
have been particularly interested in that for years, have a 
bill that does it. And I understand the Commission is 
evaluating staff assessments and expects a proposal by early 
2014. We are all aware of the risks from spent fuel in storage 
pools that can--and that it can be reduced by moving some of it 
to dry casks. So can you elaborate on how the NRC is 
prioritizing the dry cask storage of spent fuel rods, as well 
as any hurdles that might remain for the implementation of this 
safer storage system?
    Ms. Macfarlane. We are now in the process of considering 
whether to require expedited transfer of spent nuclear fuel 
from the pools at reactors to dry cask storage. And the 
Commission will be having a commission meeting on this in early 
January. We have a few papers from the staff that address this 
issue. And so it is an area of active consideration.
    Mr. Engel. Well, I thank you for that. And, you know, as I 
mentioned, I have been concerned about it for awhile. And I am 
very happy that you are moving forward on it. Let me ask you my 
last question. Mr. Terry's bill chips away at the authority of 
the NRC Chairman in a nuclear emergency, as we mentioned. The 
bill says the Chairman again can declare an emergency only in 
response to an eminent safety or security threat at a facility 
in the U.S., or involving nuclear materials directly related by 
the Commission. Chairman, do you think it makes sense to limit 
your emergency authority to events involving U.S. based 
facilities and materials, and are there scenarios in which 
events in other countries could trigger an emergency in the 
United States or threaten U.S. citizens? I am told that most of 
Canada's nuclear power plants are in Ontario, near the U.S. 
border, near my State--home State of New York. And I am also 
told that last week, thieves stole a shipment of radioactive 
cobalt-60 in Mexico, which is an incident that could have had 
implications for the United States.
    Ms. Macfarlane. I think the Chair needs flexibility to 
respond to an emergency wherever it is. In particular, in terms 
of foreign countries, as you point out, Canada has nuclear 
power plants that are relatively near our border that may pose 
an emergency for the U.S. I would also like to point out that 
we--the United States has military personnel in a number of 
countries that may be near nuclear facilities. If there is an 
emergency with one of those nuclear facilities, I think the 
U.S. government would probably want the Nuclear Regulatory 
Commission to have a full understanding of the emergency 
occurring. And so I think we have to make sure we have 
flexibility to respond to situations in which U.S. citizens 
are--may be at risk.
    Mr. Engel. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time expired. Now, I will show 
that we have multiple branches of the service. I turn to 
Colonel Johnson from the great State of Ohio.
    Mr. Johnson. Well, thank you, Mr. Chairman. And it was only 
the Air Force. But that is OK. I am good. All of the service 
are important. And I want to thank the panel for being here 
with us this morning.
    I got a few comments before I get to my question, and then 
I will ask it to each of you. We have heard a lot this morning 
about budgets and costs. And when it comes to matters that are 
truly necessary for the protection of public health and safety 
of course, cost shouldn't be necessarily the driving factor. 
However, I am concerned that the NRC and the industry are in a 
pattern of ever increasing cost chasing ever smaller increments 
and safety gain. If I could ask the clerk to put up the slide 
of NRC's nuclear reactor safety budget versus licensing action?
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Johnson. This slide shows how the NRC's nuclear safety 
budget has grown over the last decade. But I want to show you 
another slide, ``Spending on Selected Cost Categories,'' that 
shows how the industry's regulatory costs have grown just since 
2005.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Johnson. That red line shows the percentage increase of 
regulatory capital expenditures compared to what the industry 
spent in 2005. So that distinct red peak shows that regulatory 
expenditures in 2012 were about 230 percent of what they were 
in 2005. The spending has now leveled off at about twice what 
the industry spent in 2005. I am guessing as the cost of the 
NRC's post-Fukushima requirements are incurred, this line will 
trend upward again. I understand one utility has estimated 
their post-Fukushima cost to be $400 million. That is $.4 
billion. That is a lot of money.
    So the NRC incurs costs in establishing new regulatory 
requirements. Right now, there are 56 rulemakings listed on the 
regulations.gov site. The industry incurs costs to implement 
the requirements. And then the NRC incurs more costs approving 
and overseeing the industry's implementations. This seems to be 
a self-reinforcing cycle of regulatory burden. Not only do I 
question whether this is sustainable over the long term, I am 
concerned about whether the safety gains are commensurate with 
these costs.
    The NRC's Principles of Good Regulation include 
reliability, which states that--and I quote, ``once 
established, the regulation should be perceived to be reliable 
and not unjustifiably in a state of transition'' and ``should 
be promptly, fairly, and decisively administered so as to lend 
stability to the nuclear operational and planning processes.''
    Nuclear energy makes a vital contribution to our energy 
security. It is a pillar in our energy profile. One utility has 
already cited regulatory burden is a factor in their decision 
to close the plant prematurely. For plants whose economic 
viability is threatened, this increasing regulatory burden is a 
factor that can't be ignored when considering whether to keep 
operating. Decommissioning shouldn't be the only option that 
provides regulatory stability.'' I think this situation calls 
for strong leadership from the Commissioners.
    Now for the question, and I would like to go down and have 
each of you answer. What do you think the NRC should do to 
stabilize this situation and restore some stability to the 
regulatory environment?
    Ms. Svinicki. Well, I think that the Commission's approach 
to its post-Fukushima actions does reflect and take into 
account a number of the concerns that you have just expressed. 
For example, when presented with a long list of potential areas 
for regulatory action, the Commission itself took and 
prioritized those actions into those that would provide the 
greatest safety benefit. And we acted on those first. So the 
estimate of how much that red line would go up on your graph 
once the post-Fukushima actions are completed and all fully 
implemented is I think some of the costs will be loaded into 
the early years, because we have acted first on those things 
that have the greatest benefit to safety. And for the remainder 
of the actions, we need to strike the right balance between the 
probability of some of these extreme events and the need to 
take regulatory action on them.
    Mr. Johnson. Sir?
    Mr. Apostolakis. I must say I was a little bit disturbed by 
your several slides that were shown today regarding costs. So I 
will go back and try to understand better what the reasons are. 
But as I--and I agree with Commissioner Svinicki's comments. 
But also, in my opening statement, I mentioned a few things 
that the Agency is doing now to deal with the so-called 
cumulative effects of regulations. So I believe the Commission 
is aware of these problems, and perhaps we need to do more. So 
I don't know yet what else we need to do.
    Mr. Johnson. All right. Commissioner, I am going to let you 
go last, if that is OK? So let us go to Mr. Magwood.
    Mr. Magwood. Thank you. I echo both Commissioner 
Apostolakis and Commissioner Svinicki. I would also add that as 
we go through the effort of looking at each one of these 
regulations, we do look at them in the context of what is 
necessary. I think each of us of course weighs that 
differently. And if something is not necessary, we don't 
approve it. There are times----
    Mr. Johnson. But the slides indicate that hasn't worked up 
until now.
    Mr. Magwood. And then there are many things that have been 
proposed that the Commission has not approved. And we have been 
pretty aggressive about that. So in my view, you know, learning 
nuclear power plants is not for the faint of heart. And you 
have to--we have to be able to meet regulatory requirements. 
And the requirements we put forward I think are appropriate. 
That said, I think--and Commissioner Apostolakis alluded to 
this earlier, that there is a very useful--very important 
conversation taking place within the Agency--and with the 
Agency and the industry, talking about prioritization of 
regulations. And this is something I think that if it is 
successful would enable us to look at regulations in a more 
holistic manner at each site. And that is really I think the 
path of the future. And that is how you would best address 
these issues.
    Mr. Johnson. Mr. Chairman, I know we are considerably over 
time, but I would like each panel member to have a chance to 
answer. If you would indulge us. Sir?
    Mr. Ostendorff. Thank you for the question. I would just 
agree with my colleagues' comments, and maybe add two other 
thoughts. One of them is that we--and Commissioner Magwood 
mentioned that we have this approved staff recommended 
enhancements to regulations.
    Mr. Johnson. I am sure you have.
    Mr. Ostendorff. Yes.
    Mr. Johnson. But what we are talking about here are the 
facts that are in the costs and the gains.
    Mr. Ostendorff. I understand. I am just telling you--and I 
will look at our--specifically in our post-Fukushima 
decisionmaking. You know, perhaps we need to do a better job of 
coming by to see you and explain these, but we do post--and all 
of our written notation votes are public. We explain in great 
detail, every individual Commissioner, as to what decision we 
have reached and why. And if you go look, I will just highlight 
1 decision, the external filter decision from earlier in 2013 
where the Commission spent a great deal of time looking at the 
pros and cons, the cost benefit analyses and came to a decision 
that did not require installation of an external filtered vent, 
but gave industry more latitude to develop filtering 
strategies. So I think there are examples there. We perhaps 
need to communicate it better.
    Mr. Johnson. And I agree that there are probably some 
things that you have done very well. But in all due respect, 
what you are describing are things that you have done that 
have----
    Mr. Shimkus. So my colleague is causing us to be very 
patient. If you could? If you would--briefly, if you can?
    Ms. Macfarlane. I will keep it short.
    Mr. Johnson. Thank you.
    Ms. Macfarlane. I agree with my colleagues in the 
statements they have made. I do think that we are cognizant of 
the cost benefit analysis. But I just want to remind you that 
the Atomic Energy Act requires us to not consider costs when 
the NRC determines that a given regulatory action is required 
for the adequate protection of nuclear facilities. And that was 
the case with a number of the orders given post-Fukushima.
    Mr. Johnson. Thank you, Mr. Chairman, for your indulgence, 
as well as the committee. Thank you.
    Mr. Shimkus. The gentleman's time has expired. The Chair 
now recognizes my colleague, my friend, my congressional 
classmate, the woman--the gentlelady from Colorado, Ms. 
DeGette, for 5 minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman. Good to see 
you in fine form today. I am happy to see all 5 Commissioners 
here today, just as everyone else said. And I just have a few 
questions.
    Commissioner Svinicki, you were on the Commission in 2010, 
is that correct?
    Ms. Svinicki. Yes.
    Ms. DeGette. I just want to get a little recent history 
clear. And since you were there, I want to start with you. In 
that year, in 2010, the DOE filed a Motion with the NRC to 
withdraw the Yucca Mountain license application, is that 
correct?
    Ms. Svinicki. Yes, I believe so. I am having to go from my 
memory on some of these dates.
    Ms. DeGette. OK. Yes. But the NRC Licensing Board denied 
the Motion, and the Commission sustained the Licensing Board's 
denial of the application, is that correct?
    Ms. Svinicki. Yes.
    Ms. DeGette. But then after the denial of DOE's Motion, the 
NRC did not continue to review the Yucca application because of 
budgetary limitations, is that correct?
    Ms. Svinicki. The sequence of events may be a little bit 
different after the Commission sustained the Licensing Board--
it may have been that there was some time that the staff worked 
to kind of have what we call an orderly closeout of activities. 
So they may not have happened exactly concurrently.
    Ms. DeGette. OK. Chairman Macfarlane, what were the 
budgetary limitations that were involved with the NRC's ceasing 
of reviewing the Yucca applications, do you know?
    Ms. Macfarlane. I wasn't Chairman then, so I----
    Ms. DeGette. And you don't know?
    Ms. Macfarlane. I don't know, but I can take that for the 
record and try to get the answer for you.
    Ms. DeGette. OK. Now, since that point, the courts have 
ordered the NRC to continue that review. And you are now 
complying with those orders, is that correct?
    Ms. Macfarlane. That is correct.
    Ms. DeGette. Now, you have got about $11 million--this kind 
of goes to Mr. Dingell's questions that he was asking. And my 
staff tells me that you have about $11 million remaining in the 
Yucca accounts. And your staff estimates that it will cost 
about that much to finish the report. Is that correct?
    Ms. Macfarlane. To finish the Safety Evaluation Report, not 
the licensing.
    Ms. DeGette. The safety evaluation--that is right. And I 
just want to say, I would encourage the NRC to keep to those 
timelines set and to finish the Safety Evaluation Report, 
because it looks like we have got the money and it is ongoing. 
And I think it is important to have that. So I just wanted to 
ask one more question kind of following up on what Mr. Engel 
was talking about, which is the bill that we are talking about 
today. And as a number of folks have discussed, the Chairman of 
the Commission under this bill would not be able to exercise 
emergency authority with--without consulting with congressional 
committees, other Commissioners and the public. And like my 
colleagues, I am kind of worried about how this would work in a 
crisis. And one thing nobody has asked you, and maybe, Madam 
Chair, this would be a good thing for you to talk about is if 
we learned any lessons from Fukushima about what kind of quick 
response we need to have in a crisis? What lessons have we 
learned from Fukushima?
    Ms. Macfarlane. Well, we have learned many lessons. But 
in----
    Ms. DeGette. But in this particular context?
    Ms. Macfarlane. In this particular context, I think it is 
important for there to be a person who is in leadership who is 
in--who can make decisions very quickly. I think that is one of 
the lessons taken from Fukushima.
    Ms. DeGette. Because in fact in Japan what happened was 
there were a lot of layers of bureaucracy that they had to go 
through, and that delayed decisionmaking, isn't that right?
    Ms. Macfarlane. Yes. And I think that was--these were 
lessons that the United States learned after the--well, during 
the Three Mile Island accident.
    Ms. DeGette. Um-hum. Yes.
    Ms. Macfarlane. And those lessons were then codified into 
law, and the Nuclear Regulatory Commission was restructured 
according to those lessons.
    Ms. DeGette. Great. Thank you. Thank you very much, Mr. 
Chairman. I appreciate it.
    Mr. Shimkus. The gentlelady yields back her time. The Chair 
now recognizes the gentleman from Mississippi, Mr. Harper, for 
5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. And thank each of you 
for being here. And it is encouraging to see a much greater 
level of cooperation among the Commissioners than perhaps in 
previous years. And so that does bring some comfort.
    And if I may start with you, Madam Chair? When we had 
discussions previously, I had asked you if you had read and 
reviewed the NRC Inspector General's conclusions in the June 6, 
2011, and June 26, 2012 reports. And at that point, you had 
not. So I am curious if you have had a chance to do that since?
    Ms. Macfarlane. Yes. Yes, I have.
    Mr. Harper. OK. And that--I know there were revised 
procedures after the 1 in '11. Have there been any other 
revisions that I have missed since the June 26, 2012 report as 
a result of that?
    Ms. Macfarlane. As a result--no, I don't believe so.
    Mr. Harper. OK. Have you taken any actions to address the 
IG's conclusions that we need to be aware of?
    Ms. Macfarlane. No.
    Mr. Harper. Are there any that you believe you should make 
based upon the rather comprehensive report in 2012?
    Ms. Macfarlane. No.
    Mr. Harper. OK. Did you agree with those conclusions that 
were in the report?
    Ms. Macfarlane. I don't take a----
    Mr. Harper. I know I am putting you on the spot with----
    Ms. Macfarlane. I don't take a view on those----
    Mr. Harper. OK.
    Ms. Macfarlane. You know, I wasn't here during that period. 
So I don't have a view on----
    Mr. Harper. Yes. And I understand you weren't here. But, 
obviously, we would like to make sure that some of those don't 
repeat themselves. So I am appreciative that you have read 
those. And if I may ask, on August 1, the NRC provided its 
status report on power uprates to the Commission. And, of 
course, power uprate is the term for the process where a 
nuclear plant requests approval to increase their power output, 
correct?
    Ms. Macfarlane. Um-hum.
    Mr. Harper. And to date, the NRC has approved 74 power 
uprate requests totaling over 7,000 megawatts of additional 
capacity, roughly the equivalent of 7 new plants. And so this 
is a well-established practice. That would be true also, 
wouldn't it?
    Ms. Macfarlane. Um-hum. Yes.
    Mr. Harper. You know, in the staff's report, they indicate 
that a number of power uprate projects have been canceled, 
freeing up 3.9 fulltime equivalent reduction of staff work. And 
the staff also notes how they continue to have challenges in 
meeting their performance goals, even though the goals for 
review timeliness were increased 50 percent. Of the 14 
applications under review, three were filed in 2004 and another 
one in 2008. Even though the performance goal for reviewing 
these applications was less than 12 months, in fact, none of 
the applications currently under review have met their 
performance goal. And I will briefly summarize, if I may? It is 
a well-established program with the decreasing workload, but 
the staff is falling far short of meeting timeliness goals in 
spite of these goals being increased 50 percent. To me, that 
sounds like a program in need of management and accountability. 
And I will give you an opportunity to respond in a moment.
    In the Commission response--what was that? It said it is no 
longer necessary to provide the Commission the periodic status 
report on power uprates, and if specific issues arise to inform 
the Commissioners' assistants accordingly. Employees focus on 
what their bosses focus on. If timeliness is of no concern to 
the Commission, it appears it might not be for the NRC's staff. 
The Commission's lack of leadership on this issue will only 
further undermine schedule discipline at the NRC. The 
Commission's efficiency principle states this, the American 
taxpayer, the rate paying consumer and licensees are all 
entitled to the best possible management and administration of 
regulatory activities. Regulatory decisions should be made 
without undue delay.
    And I would like to hear from each of you on how you think 
that the Commission would be best be able to restore some 
stability and predictability to this core program. And if I 
could ask you that, Madam Chair?
    Ms. Macfarlane. To the power uprate program?
    Mr. Harper. Yes.
    Ms. Macfarlane. Yes. Thank you for the question. Of course, 
we are concerned with working as efficiently and as effectively 
as possible, always, and in terms of power uprates as well. We 
have been working under specific circumstances the past year--
year or two. In particular, this past year, we have suffered 
like many agencies, sequestration, which has affected our 
ability to be responsive in a number of areas. And power 
uprates may be one of those. In addition to which, we have 
taken on additional work for waste confidence that has 
redirected staff resources for Fukushima and being responsive 
to that. That has redirected staff resources as well. And then 
we have the piece of the industry responsiveness. And, again, I 
go back to statements I have made earlier that when we receive 
applications from licensees, we need high quality applications 
that don't generate a number of answers, and then we need 
efficient responses as well.
    Mr. Harper. And I see my time has expired. And I yield 
back. Thank you.
    Mr. Shimkus. The gentleman yields back his time. And we 
want to thank you all. A few short comments. And if Mr. Tonko 
wants to add. I was invited to and attended the Yucca economic 
symposium put on by Nevadans in Reno a couple weeks ago. So I 
just throw that out as an interesting comment. A lot of the 
comments today by my colleagues I think were based upon I think 
the industry fears it is on a knife edge with nat gas pressures 
and this cumulative effect of regulation. And so I think that 
is that balance that you may have heard from a lot of my 
colleagues. And in a commission form of government, the 
Chairman is responsible for agendas and the staff, but you are 
all still one among equals on casting votes. And whether that 
is at the municipal level or whether that is at the level--and 
we applaud the camaraderie and moving forward and what we have 
been able to do.
    I do have one--two announcements. One is Vinnie Esposito's 
last day as our nuclear fellow. He has been tremendously 
helpful to us and to me personally. And I want to wish him God 
speed and thanks for your help. I would like to finish by 
thanking you all for coming. It was a long hearing. But it was 
a good one. And I think we all learned a lot. I want to remind 
members that they have 10 business days to submit additional 
questions for the record. And as promptly as you can, a 
response to those, we would appreciate that. And I would say 
the hearing is now adjourned.
    [Whereupon, at 12:50 p.m., the subcommittees were 
adjourned.]
    [Material submitted for inclusion in the record follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
